<html>
<title> - DEPARTMENT OF DEFENSE'S SUPPORT TO THE SOUTHERN BORDER</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                          [H.A.S.C. No. 116-2]

         DEPARTMENT OF DEFENSE'S SUPPORT TO THE SOUTHERN BORDER

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                              HEARING HELD

                            JANUARY 29, 2019

                                     
                 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
35-335                    WASHINGTON : 2019   


                      COMMITTEE ON ARMED SERVICES
                     One Hundred Sixteenth Congress

                    ADAM SMITH, Washington, Chairman

SUSAN A. DAVIS, California           WILLIAM M. ``MAC'' THORNBERRY, 
JAMES R. LANGEVIN, Rhode Island          Texas
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                ROB BISHOP, Utah
JOE COURTNEY, Connecticut            MICHAEL R. TURNER, Ohio
JOHN GARAMENDI, California           MIKE ROGERS, Alabama
JACKIE SPEIER, California            K. MICHAEL CONAWAY, Texas
TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
DONALD NORCROSS, New Jersey          ROBERT J. WITTMAN, Virginia
RUBEN GALLEGO, Arizona               VICKY HARTZLER, Missouri
SETH MOULTON, Massachusetts          AUSTIN SCOTT, Georgia
SALUD O. CARBAJAL, California        MO BROOKS, Alabama
ANTHONY G. BROWN, Maryland, Vice     PAUL COOK, California
    Chair                            BRADLEY BYRNE, Alabama
RO KHANNA, California                SAM GRAVES, Missouri
WILLIAM R. KEATING, Massachusetts    ELISE M. STEFANIK, New York
FILEMON VELA, Texas                  SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 RALPH LEE ABRAHAM, Louisiana
KENDRA S. HORN, Oklahoma             TRENT KELLY, Mississippi
GILBERT RAY CISNEROS, Jr.,           MIKE GALLAGHER, Wisconsin
    California                       MATT GAETZ, Florida
CHRISSY HOULAHAN, Pennsylvania       DON BACON, Nebraska
JASON CROW, Colorado                 JIM BANKS, Indiana
XOCHITL TORRES SMALL, New Mexico     LIZ CHENEY, Wyoming
ELISSA SLOTKIN, Michigan             PAUL MITCHELL, Michigan
MIKIE SHERRILL, New Jersey           JACK BERGMAN, Michigan
KATIE HILL, California               MICHAEL WALTZ, Florida
VERONICA ESCOBAR, Texas
DEBRA A. HAALAND, New Mexico
JARED F. GOLDEN, Maine
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia

                     Paul Arcangeli, Staff Director
                      William S. Johnson, Counsel
                  Kim Lehn, Professional Staff Member
                          Justin Lynch, Clerk



                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Committee on Armed Services....................................     1
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Ranking Member, Committee on Armed Services....................     3

                               WITNESSES

Gilday, VADM Michael, USN, Director of Operations (J3), Joint 
  Staff..........................................................     6
Rood, Hon. John, Under Secretary of Defense for Policy, Office of 
  the Secretary of Defense.......................................     4

                                APPENDIX

Prepared Statements:

    Rood, Hon. John, joint with VADM Michael Gilday..............    59

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [The information was not available at the time of printing.]

Questions Submitted by Members Post Hearing:

    Mr. Bacon....................................................    75
    Mr. Brown....................................................    73
    Ms. Escobar..................................................    75
    Mr. Garamendi................................................    72
    Ms. Houlahan.................................................    73
    Mr. Smith....................................................    67


 
           
         DEPARTMENT OF DEFENSE'S SUPPORT TO THE SOUTHERN BORDER

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Tuesday, January 29, 2019.
    The committee met, pursuant to call, at 10:00 a.m., in Room 
2118, Rayburn House Office Building, Hon. Adam Smith (chairman 
of the committee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
       WASHINGTON, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Call the meeting to order, if everyone could 
please take their seats. Welcome. Since this is our first 
hearing as a new committee, just one quick sort of housekeeping 
measure. We talked a little bit during our organizational 
meeting about the 5-minute rule. I didn't get into the 
specifics of it.
    So now that we have witnesses here, when each of you are 
asking questions, the 5-minute rule applies to the totality of 
your conversation, or at least I am going to try to have it be 
that way. So in other words, if you ask a question for 5 
minutes, it doesn't mean that the witnesses then answer it for 
another 10; we try to stop it at 5.
    Now, for the witnesses, I will not cut you off in mid-
sentence, but the second it hits that 5 minute, there will be a 
light little tapping, just to remind you that we are supposed 
to move on to the next person and if you could summarize at 
that point that would be great.
    I will try--like I said, I will try to let you finish the 
thought, and then also we always have the option of, you know, 
if you don't get to everything that was asked, there's the 
fail-safe, you know, we will take it for the record, we will 
submit it to your office when we get a chance.
    But that is because, as you can see, we have a large 
interest in this subject and we want to try to get to everybody 
today, give every member a chance, if possible, to ask 
questions.
    So the purpose of today's hearing is to discuss the 
deployments to the border that have been done of both Guard, 
Reserve, and Active Duty members of the military.
    To help us understand this policy, the Pentagon has sent us 
the Secretary of Defense for Policy John Rood, thank you very 
much for being here; and the Director of Operations for the 
Joint Staff, Vice Admiral Michael Gilday. I appreciate you both 
being here and look forward to your testimony.
    We have a number of questions we want to figure out. First 
of all, it's just sort of the basics. How many Active Duty 
members have been sent? What is the plan going forward, how 
does that compare to the Guard and Reserve? Why did we choose 
Active Duty for part of this instead of the Guard and Reserve?
    Because as most members of this committee know, there is a 
fairly substantial history of Presidents using members of the 
Guard and Reserve under title 32 for border security 
operations. What is a little bit more unusual is sending Active 
Duty personnel to the border. It's not unprecedented, but it 
has not been done before very often.
    So this was an unusual step, and one of the biggest areas 
of question we have there is what is the impact of this on DOD 
[Department of Defense]? As this committee well knows, we fell 
way behind in readiness as a result of the Iraq war and the 
Afghanistan war, and just the tempo that the military had to go 
through, and we began to catch up on that, which is good.
    But what impact does it have to readiness to send several 
thousand troops down to the southern border? It interrupts 
their training, it interrupts their dwell time. How is that 
impacting it? And also, we don't, to my knowledge, have a 
figure for what this has cost the Pentagon yet, so we want 
those details.
    Another big piece of this is the reason Active Duty troops 
and Guard and Reserve were sent there in the first place was 
because there was a perceived crisis at the border. There 
really isn't that much evidence of that crisis.
    Now, that is not to say that border security isn't a 
challenge, and in speaking for myself but also I believe for 
all of the people on this committee, we believe border security 
is enormously important and a challenge, something we have to 
continually try to figure out how to get right.
    Not the primary jurisdiction of this committee, other 
committees are supposed to handle it, but we acknowledge its 
importance and the role that the military will occasionally 
play in helping it. But when you look at the statistics, the 
peak of our problem on the border was in 2004 and in 2005.
    Consistently up to that point, there was over a million 
apprehensions of unauthorized attempted border crossings at the 
border. For the last several years, that number has been below 
400,000, so roughly one-third of what it was.
    And this didn't happen by accident. We made an investment 
in a bipartisan way. From 2005 forward, we have nearly doubled 
the number of Border Patrol agents. We have built 700 miles of 
wall. We have drones and sensors, and all manner of different 
efforts that have been taken to reduce the amount of 
unauthorized border crossings.
    And as a result of that, we have actually had zero net 
migration from Mexico for I think going on 4 or 5 years. So 
while border security is always a challenge, there's really not 
much evidence that right at the moment it is a crisis that 
would call for the, if not unprecedented then highly unusual, 
step of sending Active Duty troops to the border.
    We need to better understand not just that border security 
is a challenge, we get that. We get that drugs come across the 
border, although as has been very well documented they do not 
usually come across--you know, they come across through ports 
of entry. There are other areas where we need to spend money if 
we are going to try to get at that issue.
    So if it is an issue, why all of a sudden now is it a 
crisis and what impact is it having on the military? And 
lastly, we have all heard much of the discussion about the 
possibility of the President declaring a state of emergency and 
taking money from a variety of different places in order to 
build a wall.
    And when he is talking about a state of emergency, he is 
talking about taking the money pretty much exclusively to build 
a wall. And, you know, that is not this committee's primary 
area of debate, but certainly I think all members here have a 
strong opinion and don't be surprised if you get a question or 
two about that.
    But when it comes to the declaration of the emergency, the 
President has fairly broad authority under a 1976 law to do 
that. He would have to justify that emergency, and I am certain 
it would be challenged in court, but the real big concern here 
is where does he find the money?
    And if he is talking about building a wall, I know we have 
talked about $4 or $5 billion right now, but the long-term cost 
of what he is talking about is much, much more than that. And 
the main--the only pot of money, as I understand it, in the 
Pentagon that the President could go after, would come out of 
military construction.
    I think there is a bipartisan opinion on this committee 
that we should not be taking Department of Defense dollars out 
of military construction, well, for anything, for a wall or 
anything else, because again we have a readiness challenge, 
that money needs to be spent there.
    So what would the impact of that be is something we are 
going to be interested in. There are other pots of money that 
the President can go to. The primary one is the Army Corps of 
Engineers and those are for projects that are primarily focused 
on flood relief, not necessarily, not DOD priorities.
    There are other pots of money but none of them are that 
big. I mean let's face it, when you look at the discretionary 
budget, the Department of Defense is where the money's at. So 
we are deeply concerned that if an emergency is declared, that 
money is going to be taken out of DOD for what some of us think 
is a questionable purpose, but whether you support the purpose 
or not, where that money is right now is important and we would 
not like to see it taken away.
    With that, I will yield to the ranking member for his 
opening statement and I thank our witnesses again for appearing 
before us.

      STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
 REPRESENTATIVE FROM TEXAS, RANKING MEMBER, COMMITTEE ON ARMED 
                            SERVICES

    Mr. Thornberry. Let me join in welcoming our witnesses, 
thank you all for being here today. In my view, it is perfectly 
appropriate for our committee to examine the mission and the 
activities of our military on the southern border.
    And I think that the questions the chairman asked at the 
beginning of his statement, what are we doing down there, how 
much does it cost, what effect does it have on readiness, and 
so forth are perfectly legitimate questions.
    I do have concerns that the broader issues related to the 
immigration debate that are not the purview of this committee 
may be brought into this room, even though we have no 
jurisdiction and even though it threatens, at least, to begin 
us this year on a more partisan contentious note than we 
otherwise might.
    I hope that does not happen. When it comes to DOD, I note 
that the briefing material prepared for us by the staff say 
that the previous five administrations have authorized the use 
of Armed Forces operating under title 10 authorities in support 
of border security.
    And as a matter of fact, we tried to look at the various 
functions going back to at least the early 1990s that include 
things like surveillance and logistics and command and control 
and aviation support and a whole variety of things.
    I noticed that in 1997 under President Clinton, the 
military was used for construction to build and improve 
physical barriers. I noted in 2012 under President Obama, the 
military was used for construction to install sensor equipment 
and so forth.
    So I guess my takeaway, trying to put this a little in 
context is, number one, what the administration has done is in 
line with, consistent with, the sorts of things that we have 
asked the military to do for a long, long time.
    My second takeaway is that under administrations of both 
parties and Congresses of both parties, we obviously aren't 
providing for adequate resources for border security, because 
we keep having to use the military to back up the Border Patrol 
when it ought to be their job to do it.
    Now again, some of that takes us into areas outside of this 
committee, how much we do on border security, but clearly it 
has implications for us. And I hope that as we not only look at 
what we are doing today but put today's mission in context, 
going back what, 30 years or more, that it at least informs 
maybe decisions that are made outside of this room.
    Thank you all again for being here, we look forward to your 
testimony and I yield back.
    The Chairman. Thank you. That, gentlemen--please, it was--
Mr. Rood you are going to go first.
    Secretary Rood. Yes, thank you.
    The Chairman. Okay. And for the record, in your--in your 
books, there is a joint statement that they both provided for 
the committee.

  STATEMENT OF HON. JOHN ROOD, UNDER SECRETARY OF DEFENSE FOR 
           POLICY, OFFICE OF THE SECRETARY OF DEFENSE

    Secretary Rood. Thank you. Mr. Chairman, Ranking Member 
Thornberry, other distinguished members of the committee, thank 
you for the opportunity to testify before you today on the 
Defense Department's support to the Department of Homeland 
Security U.S. Customs and Border Protection mission to secure 
the southern border of the United States.
    The Department of Defense has a long history of supporting 
border security. DOD has supported efforts to secure U.S. 
borders since the early 1990s. DOD has supported civilian law 
enforcement border security activities, counter-drug 
activities, and activities to counter transnational organized 
crime and other transnational threats.
    Active, Reserve, and National Guard personnel have provided 
operational military support such as aerial reconnaissance, 
ground surveillance, search and rescue support, and medical 
support. DOD has loaned facilities and special equipment such 
as aerostats, ground surveillance radars, and ground sensors to 
CBP, or Customs and Border Protection.
    DOD has also provided temporary housing support to the 
Department of Health and Human Services, or HHS, as part of the 
national response to the surge of unaccompanied alien children, 
or UAC, at the U.S. southern border.
    From 2012 to 2017, DOD provided shelter for nearly 16,000 
unaccompanied alien children who received care, security, 
transportation, and medical services from HHS.
    Consistent with section 2815 of the National Defense 
Authorization Act for Fiscal Year 2017, the Secretary of 
Defense certified that providing this sheltering support to HHS 
would not negatively affect military training, operations, 
readiness, or other military requirements, including National 
Guard and Reserve readiness.
    At the direction of President Bush, in support of CBP's 
Operation Jump Start, DOD provided National Guard personnel--
some 6,000 from June of 2006 to July of 2007 and some 3,000 
from July of 2007 to July of 2008--to augment and enhance CBP's 
ability to execute its border security mission.
    National Guard personnel provided aviation, engineering, 
medical, entry identification, communications, vehicle 
maintenance, administrative, and other non-law enforcement 
support. In addition, the National Guard improved the southern 
border's security infrastructure by building more than 38 miles 
of fence, 96 miles of vehicle barrier, more than 19 miles of 
new all-weather road, and conducting road repairs exceeding 700 
miles.
    At the direction of President Obama, DOD provided up to 
1,200 National Guard personnel annually from 2010 to 2016 in 
support of CBP's Operation Phalanx. National Guard personnel 
provided aerial reconnaissance, analytical support, and support 
to counterdrug enforcement activities that enabled CBP to 
recruit and train additional officers to serve along the 
southern border.
    DOD works closely with the Department of Homeland Security 
[DHS] on requests for assistance. Across the full range of 
support that DOD has provided DHS--border security support, 
disaster support, special event security support, and support 
for protection of the President--DOD has worked closely with 
DHS as that department develops its request for DOD assistance 
as deliberately, expeditiously, and as effectively as possible 
to meet mission needs.
    DOD carefully considers all requests for assistance, 
including in order to determine whether DOD has the requested 
capabilities and resources and whether providing the requested 
assistance is consistent with the law.
    When a request is approved, DOD works with the requester to 
select the right forces and resources to meet the requester's 
mission needs and to avoid or mitigate potential impacts on 
military readiness. DOD has used the same process for every DHS 
request for assistance related to DHS's border security 
mission.
    In our current type of support, in his April 4, 2018, 
memorandum titled, Securing the Southern Border of the United 
States, the President directed the Secretary of Defense to 
support DHS in, quote, securing the southern border and taking 
other necessary actions to stop the flow of deadly drugs and 
other contraband, gang members, and other criminals and illegal 
aliens into this country, end quote.
    The President also directed the Secretary of Defense to 
request the use of the National Guard to assist in fulfilling 
this mission, pursuant to section 502 of title 32, and to use 
such other authorities as appropriate and consistent with 
applicable law.
    The President also directed the Secretary of Defense and 
the Secretary of Homeland Security, in coordination with the 
Attorney General, to determine what other resources and actions 
are necessary to protect our southern border, including Federal 
law enforcement and U.S. military resources.
    All of this military support has been, and will continue to 
be, provided consistent with the law, including the Posse 
Comitatus Act, section 1385, title 18. Military personnel have 
supported civilian law enforcement efforts but do not directly 
participate in law enforcement activities such as search, 
seizure, and arrest.
    Military personnel protecting CBP personnel performing 
their Federal functions at points of entry are consistent with 
the April 1971 opinion of the Department of Justice Office of 
Legal Counsel, also complying with the Posse Comitatus Act.
    So, Mr. Chairman, in conclusion, let me say the military's 
presence and support increase the effectiveness of CBP's border 
security operations, free U.S. Border Patrol agents to conduct 
law enforcement duties at the southern border, and enhance 
situational awareness to stem the tide of illegal immigration, 
human smuggling, and drug trafficking along the southern 
border.
    The ongoing temporary DOD support is a continuation of the 
Department's long history of supporting DHS and CBP in their 
mission to secure the U.S. border. These decisions are far from 
static, and we continue to work with the services, the National 
Guard Bureau, and U.S. Northern Command to evaluate mission 
requirements and associated risks.
    Mr. Chairman, thank you for the opportunity to testify 
today.
    [The joint prepared statement of Secretary Rood and Admiral 
Gilday can be found in the Appendix on page 59.]
    The Chairman. Thank you.
    Admiral Gilday.

 STATEMENT OF VADM MICHAEL GILDAY, USN, DIRECTOR OF OPERATIONS 
                       (J3), JOINT STAFF

    Admiral Gilday. Good morning, Chairman Smith, Ranking 
Member Thornberry, distinguished members of the committee. 
Thank you for your support of the men and women in uniform who 
serve our Nation. And thanks for the opportunity this morning 
to address our military's support to the Department of Homeland 
Security in their mission to secure our southwest border.
    As Secretary Rood mentioned, DOD has a well-established 
relationship with DHS. This includes our recent efforts to 
support the responses to hurricanes Michael and Florence, the 
wildfires in California, and our joint cybersecurity 
initiatives protecting our Nation's critical infrastructure.
    DOD's mission of homeland defense is inextricably linked to 
DHS's mission of homeland security. There is no better example 
than the ongoing efforts of our Active and Guard personnel 
supporting Customs and Border Protection along our southern 
border today.
    Since the Commander in Chief directed the military to 
support DHS in securing the southern--the southern border in 
April, National Guard personnel have supported CBP Operation 
Guardian Support, augmenting CBP efforts to secure the border 
by performing administrative, logistical, and operational 
support tasks from April to the present day.
    Active Duty military personnel have supported CBP's 
Operation Secure Line since October in the areas of aviation, 
engineering, facilities, and medical support, and by providing 
protection for CBP personnel while they perform their Federal 
functions at our ports of entry.
    This support is now transitioning to the operation of 
mobile surveillance cameras in support of CBP in all nine 
border patrol sectors across four States and the placement of 
concertina wire on existing barriers at areas designated by CBP 
between ports of entry in Arizona and in California.
    We believe that our military's presence and support have 
served to increase the effectiveness of CBP's border security 
operation by enabling them to focus on their law enforcement 
duties at our ports of entry.
    Our strong partnership with DHS has allowed us to match 
their mission requirements to existing core competencies of our 
Guard and Active force, while operating under existing DOD 
authorities. Thus far, the results have been very successful.
    I would like to thank you again for your support and for 
the opportunity to appear before the committee. I look forward 
to taking your questions.
    The Chairman. Thank you, gentlemen. Could you give us the 
specifics, as a starting point, on the Active Duty troops that 
were deployed, when they were first deployed, how many are 
there now, and how long they are supposed to be there for.
    Secretary Rood. With regard to Active Duty troops, sir, we 
presently have just a little under 2,300--or excuse me, just 
over 2,300 Active Duty troops. They are scheduled, right now, 
to be deployed through January of 2019.
    One portion of them has been approved to be deployed 
through January of 2019. There will be additional deployments 
of Active Duty troops that will go through the end of this 
fiscal year, September 30th, in response to the latest request 
from the Department of Homeland Security.
    The Chairman. And what was the original number was, like, 
5,600 I believe, something like that? How long were that many 
troops there?
    Secretary Rood. There's a combination, sir, of National 
Guard and Active Duty troops that were deployed, and the 
numbers fluctuate. And so as you recall----
    The Chairman. I know the numbers--I am sorry, I know the 
numbers fluctuate. But the number of Active Duty troops that 
were sent there in the first place--and I am focused on the 
Active Duty piece--I believe was 5,600. Is that correct?
    Secretary Rood. It was about 5,900.
    The Chairman. 5,900. Okay.
    Secretary Rood. And that was at the beginning of November.
    The Chairman. And that is the part that is kind of 
different from everything else, here. Most of what Mr. 
Thornberry referred to in terms of the Active Duty side of it 
is under title 10. We have provided equipment, sensors, and 
various other things.
    It is very, very rare to send Active Duty troops to the 
border. We have used the Guard and Reserve consistently. And 
what was different about this set of circumstances that made us 
send, 5,800 Active Duty troops to the border? I don't see it.
    Admiral Gilday. Sir, I will provide some context----
    The Chairman. I am sorry, could you pull the microphone a 
little closer to you, there?
    Admiral Gilday. Yes, sir.
    The Chairman. These things are not as sensitive as they 
could be.
    Admiral Gilday. Is that better?
    The Chairman. That is much better, yes.
    Admiral Gilday. At that particular time, the group of 
migrants that were massing in southern Mexico was approaching 
about 10,000. And at that time, we weren't sure, DHS wasn't 
sure, which route or routes that they were going to take to the 
southwest border. There were four or five different routes that 
they could have come by.
    There was some concern with respect to timing, on whether 
they were going to go by foot, whether they were going to go by 
vehicle, or whether they were going to go by rail.
    So at that time, the President directed that we examine 
options to augment CBP at the border so that they could mass 
their personnel at the ports of entry, and we could provide an 
augmentation force to allow them to do that.
    The Chairman. And did those--those border caravans all went 
to the ports of entry, did they not?
    Admiral Gilday. Sir, they actually all went to the ports of 
entry in California, initially.
    The Chairman. Right.
    Admiral Gilday. Yes, sir.
    The Chairman. It's kind of what they said they were going 
to do, from what I was reading, anyway.
    Admiral Gilday. Sir, not initially. So they made that 
determination when they arrived in Mexico City, but at the time 
they were down in Hidalgo, we didn't know where they were going 
to go. We didn't know if they were going to go to Brownsville 
or if they were going to go to New Mexico.
    The Chairman. Just for reference, Mexico City is a pretty 
fair distance from the border. And for the most part, these 
people are walking. And that was one of the things that struck 
me at the time, every estimate that we got out of you folks was 
that they were going to get here in roughly January.
    And the border deployment--I believe the Active Duty troops 
were first sent to the border in September, correct?
    Admiral Gilday. Sir, the Active Duty----
    The Chairman. October----
    Admiral Gilday. The Active Duty troops, the request came in 
the end of October.
    The Chairman. End of October, okay.
    Admiral Gilday. And we deployed them in early November.
    The Chairman. I just--one final question this morning 
because I want to let my other colleagues get in here. You said 
that, you know, it's worked, basically; the Active Duty troops 
have improved the situation. What is your metric for that? 
Because as near as I can tell, you know, we have made 
substantial improvement since 2005 on border security, but what 
metric has changed since we sent the Active Duty troops there 
that shows that there has been some sort of improvement on any 
of these issues that you list in terms of, you know, drugs and 
border crossings and all of that?
    Admiral Gilday. Sir, in terms of metrics, the initial 
deployment consistent with a heavy deployment of engineering 
personnel, so along 22 of the ports of entry we laid some 70 
miles of concertina wire to make it more difficult for somebody 
to cross over illegally at those ports of entry. This made it 
easier for--it allowed CBP, we believe, to be able to spread 
their manpower more efficiently across a large number of ports 
of entry that could have potentially been at risk.
    Additionally, we sent medical personnel down to help with 
initial screening. And we also sent down some facilities people 
to provide facilities for CBP.
    But in terms of the metrics, sir, I would say that the fact 
that we hardened those ports of entry is probably probably the 
best answer that I can give you.
    Secretary Rood. The only thing I would add, Mr. Chairman, 
as we look to the Customs and Border Patrol and the Department 
of Homeland Security as the primary mission-holder. Our role, 
of course, is to augment their efforts.
    The Chairman. Right.
    Secretary Rood. Their statements to us and their assessment 
of the efforts that DOD has provided is that it has allowed 
them to focus their resources elsewhere and assisted in their 
mission accomplishment.
    The Chairman. None of that is an actual metric measurement. 
That is just sort of the opinion. But one final question--
sorry, I do have one final question. When are we going to be at 
the point where you can say we don't need Active Duty troops? 
Because we haven't needed them for a long time before that, now 
we apparently need them.
    What are we looking for where we can get to the point where 
we no longer are going to send Active Duty troops to the 
border? What needs to be accomplished before we can stop using 
this somewhat unprecedented step of actually sending Active 
Duty troops to the border?
    Secretary Rood. Mr. Chairman, of course, the Defense 
Department acts in support of request from the Department of 
Homeland Security/CBP, they are the primary mission-holder. As 
we look to how we will choose to augment those resources and 
respond to those requests for assistance, we look across the 
total force, Active, Reserve, and National Guard, to determine 
what is the right mix and the appropriateness of the force to 
respond.
    And that is where our decision was made in terms of the 
timeliness----
    The Chairman. Got it. So you don't really know basically 
what we need to accomplish. At the end of the day, it's DHS 
that makes that call. They decide that they need. They ask you 
for help. They work through it. But surely as the one providing 
the resources and trying to plan for the future, they have 
given you some idea of what it is they are trying to accomplish 
so that they won't need you anymore.
    Secretary Rood. They do give us an idea and we work with 
them to scope the requests and to understand what they are 
trying to accomplish so that we provide the right capabilities.
    The Chairman. And what would your take on that be?
    Admiral Gilday. It depends on the specific request, sir. 
You know, for example, some of the requests where they have 
asked for surveillance capabilities, we delve into a little bit 
of what are you trying to detect and why and what are the 
circumstances?
    With regard to the National Guard, of course, we work with 
the National Guard Bureau and----
    The Chairman. Sorry, but that is--I don't want to 
interrupt, I am asking specifically about the Active Duty 
troops who have been sent to the border. I understand all that 
other stuff. All that other stuff, if that was all you are 
doing, was all that stuff that you have talked about, we 
wouldn't be having this hearing.
    It is the Active Duty troops that sort of caught the 
attention of the committee.
    Admiral Gilday. Sir, if I can give an example, but before 
that, back to the metric----
    The Chairman. Microphone again, sorry.
    Admiral Gilday. Sir, just for a moment on the metric. We 
really are trying to prove a negative if we are trying to 
prove, you know, how many people didn't cross the border. We 
just don't know, except for the feedback that we receive from 
CBP that, you know, at the time we deployed, you know, those 
initial numbers were 10,000; now 10,000 never reached the 
border. But, you know, we felt that we were better prepared--or 
CBP was better prepared because of the work that we did.
    In terms of the work that we have done and are doing, it's 
not, it's not a steady-state demand signal. So although we 
deployed 5,900 in early November, by Christmas those numbers 
are down to 2,400----
    The Chairman. Why?
    Admiral Gilday. Because we had--we finished laying the 
concertina wire. When that mission was complete, we redeployed 
those people home. When we determined that the flow of migrants 
that had to be screened by our medical personnel wasn't as high 
as originally estimated, we downsized and we brought those 
people home.
    When the facilities that we built were no longer required 
by CBP, they had initially surged their forces--their personnel 
down there, we had provided temporary housing. When that wasn't 
required, we sent our people and we sent the equipment home.
    And so we have tried to adjust, keeping in mind readiness, 
keeping in mind cost. And so it has been fairly evolving and 
dynamic.
    The Chairman. Thank you. Mr. Thornberry.
    Mr. Thornberry. Admiral, I want to go back, because I am 
not sure we got the rest of the story. You started your answer 
a few moments ago on why Active Duty, with 10,000 folks coming 
up through Mexico, didn't know for sure where they are going to 
go. The decision was that the Border Patrol folks would focus 
on the ports of entry, and that left the rest of the border to 
be covered.
    And so can you continue then? And back to the chairman's 
question, why Active Duty in that circumstance versus Guard?
    Admiral Gilday. Yes, sir. So broadly we are taking a look 
at these requirements across the total force. And we are trying 
to see which forces are best suited for the task and who is 
readily available. And so in one's mind's eye, they may think 
that the National Guard is just a gigantic organization that we 
continue to draw from for years and years, for a decade, in 
fact. And we just can't.
    And so at the time when those forces were massing and we 
weren't sure whether they were going to come by foot, by 
vehicle, or by train, the decision was made within the 
Department given the options that we laid out in terms of 
timing, to send Active Duty, because we get those troops down 
there within a week.
    And so I hope that gives a little bit more context, sir, in 
terms of what drove the Active Duty. But we did look at the 
Guard, and we did look at Guard capacity for the missions--for 
those particular missions or the requirements that DHS and CBP 
had requested, and we just did not have those. We didn't have 
that--those skill sets available in the Guard to draw upon at 
the time.
    Secretary Rood. Congressman Thornberry, if I may add just 
briefly to that?
    Mr. Thornberry. Yeah.
    Secretary Rood. In evaluating the present request, in 
working with the National Guard Bureau and the state adjutant 
generals, part of the reason, or the reason that we have 
selected from the Active Duty to fill part of those requests 
going forward is that the Guard satisfies those requests from 
19 Guard units, 19 States. And there's a limit to the number of 
volunteers, which is the way they have sourced them, that they 
can do.
    And so the feedback from the National Guard Bureau and the 
adjutant generals is that about the present state, a little 
over 2,000, is what they can sustain. And therefore the delta 
between that sustainable rate and the new request from the 
Department of Homeland Security is what we are going to source, 
therefore, from the Active Duty.
    Mr. Thornberry. Okay. Yeah, that really gets to where I 
wanted to go. So if I can just summarize my understanding of 
this, Homeland Security says, we need help doing X, Y, Z, and 
then you--can you, DOD, help us? And then you look at what 
those specific requirements, or asks, are, and figure out what 
forces can fulfill their requests?
    And in this case, one of the key things was how quick can 
you get them there, because you didn't know where the caravan 
was going. And, secondly, what sort of specific capabilities 
did you need, because a lot of the Guard folks, at least the 
ones that you could deploy, didn't really have it. Does that 
sum it up?
    Admiral Gilday. Sir, I think so. I would like to add, 
though, that these requirements from CBP just don't drop as a 
surprise. And so we work with CBP on a daily basis to refine 
these requirements so that we can be more predictable, so that 
we can ask hard questions, so that we can look at legal aspects 
and make sure that, you know, the force is going to be used in 
a way that is consistent with the authorities that we have.
    And so it is ongoing partnership to get to what we think is 
the right answer. And the right answer isn't always 
satisfactory for all parties.
    Mr. Thornberry. But you have got to be flexible with 
events, because, for example, there are stories that there's a 
new caravan that is forming in Central America, headed this 
way. So you have got to, in your conversations with them, be 
ready to adjust to changes in the situation, don't you?
    Secretary Rood. Yes, that is right. And you are correct, 
current information shows a caravan of over 12,000 people. 
There are three that we are tracking--the Department of 
Homeland Security is tracking--en route, and one of which is 
over 12,000 people, in the latest estimate.
    And so, yes, we do have to be flexible on those events. As 
Admiral Gilday mentioned, the number of troops and the mix of 
them has varied over time and it will need to do so. And we do 
work very closely with DHS and CBP to understand the ``what'' 
they are trying to accomplish more fully so that we can source 
it and provide the type of assistance that will be meaningful.
    Mr. Thornberry. Okay. I yield back.
    The Chairman. Thank you. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. If I could, Mr. 
Chairman, I would like to yield my time to Representative 
Torres Small. Microphone.
    Ms. Torres Small. Thank you, Under Secretary Rood and 
Admiral Gilday, for being here. I really appreciate the 
dialogue about the choices that you are making when it comes to 
National Guard versus deployment of Active military. And you 
listed some of the components: timeliness, the scope of the 
request, the cost, and available troops.
    One thing I would like to dig into more is readiness. 
Admiral Gilday mentioned it briefly. We ask a lot from our 
troops, and it's critical that we provide that readiness, 
specifically through rest and refit between missions and 
deployment.
    So what impact does an increase in deployment of troops 
used along the border have on soldier readiness?
    Admiral Gilday. So far, it has been manageable. So as I 
explained a few minutes ago, we try to----
    The Chairman. I am sorry, microphone.
    Admiral Gilday. As I explained a few minutes ago, we try to 
rotate the troops in about every 6 to 8 weeks. And so we are 
trying to make sure that we maintain that deployed-to-dwell 
ratio at a manageable level, because we may have to call on 
those same forces to deploy to another mission.
    The border security mission is obviously a high priority 
for the administration, and so we are balancing that 
requirement along with Syria, Afghanistan, ongoing commitments 
in Africa, the Western Pacific, and so we are trying to balance 
all of that.
    But in this particular case, we have been using troops that 
are based here in the continental United States and we have 
been trying to rotate them in at a fairly--I don't want to say 
it is a revolving door, but you know, that first group went in 
at the beginning of November, they were out before Christmas, 
the next group will come out at the end of the month here, and 
so we try to manage it in that manner.
    Ms. Torres Small. Shifting gears just a little bit, CBP 
personnel, it's my understanding, are meant to be the primary 
and principal members who interact with migrants on the border, 
but we have already discussed somewhat the medical component of 
the mission.
    Can you give me a little more clarification on how the 
medical part of the mission is limited based on interactions 
with migrants and how that is controlled?
    Secretary Rood. Congresswoman, you are correct, the Customs 
and Border Patrol is the primary mission holder and the law 
enforcement agency. They have the responsibility to interface 
principally with the migrants. DOD personnel, medical 
personnel, are there to assist after screening has been 
conducted by CBP personnel.
    If there's someone they believe presents an illness or an 
issue that they would like to refer them after that screening 
to DOD personnel, we can assist with medical treatment.
    Ms. Torres Small. Thank you. Just shifting a little bit to 
the National Guard. I represent New Mexico. We have had a long 
history of National Guard working on the border as part of the 
anti-drug task force. Can you explain a little bit the 
differences between that longer history and the current 
National Guard operation?
    Secretary Rood. Well, as you mentioned, Congresswoman, 
National Guard members and indeed other members of the force 
have been deployed over the years to the border, in addition to 
those deployments that the current President, President Trump, 
has directed.
    Of course, President Obama directed several deployments. 
Those occurred during President Bush's tenure and during 
President Clinton's tenure. Their mission is always--the 
primary mission holder is the Department of Homeland Security, 
Customs and Border Protection.
    Ms. Torres Small. And I am sorry, just because we are 
running short on time, the differences?
    Secretary Rood. The differences--it is a very similar 
mission and it depends on what the DHS requests of us 
specifically to augment their forces. And that varies over 
time, whether it is surveillance or it's monitoring of 
different border areas, or in this particular case, emplacement 
of barriers between ports of entry.
    Ms. Torres Small. So National Guard is also placing 
barriers at ports of entry?
    Secretary Rood. That mission--my understanding is it will 
be done by Active Duty.
    Ms. Torres Small. Okay.
    Secretary Rood. About 150 miles of concertina wire in 
between ports of entry between now and the end of the fiscal 
year.
    Ms. Torres Small. So any specific differences between this 
National Guard deployment and previous ones?
    Admiral Gilday. I think it's relatively the same. I can't 
speak to the previous mission that you referred to, but I can 
give you some examples of what we are relying on the Guard for 
now.
    Heavily--with respect to aviation--and so they have a 
number of rotary-wing aircraft with electro-optical and IR 
[infrared] sensors that we don't have as many of in the Active 
force to be honest, and so they have about 17 aircraft that we 
rely upon heavily, particularly in New Mexico and Arizona.
    The other place where we are providing a lot of support is 
vehicle mechanics for CBP vehicles, intelligence analysts that 
help at CBP headquarters, paralegals, administrative 
assistance, and so the hope is that we are freeing up--or the 
goal is that we are freeing up CBP agents to actually do law 
enforcement.
    Ms. Torres Small. Thank you.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. And Secretary Rood and 
Admiral Gilday, thank you so much for being here today. We are 
so fortunate to have the military personnel, the personnel that 
we have with the U.S. Custom and Border Protection agents on 
our border to protect American families, to address the issues 
that we have on the southern border, and I want to thank both 
of you for your service.
    In particular, I have a firsthand experience of the 
benefits of being activated. I served 31 years in Army Guard, I 
am very grateful to have three sons who have served in the 
National Guard. We have found that being activated--for us, it 
was hurricane recovery and relief--but being activated and 
mobilized actually enhances training and the camaraderie of our 
members has never been better.
    And so I want to thank you for the opportunities that you 
actually give, and as has been indicated, 19 different States 
have had Guard members at the southern border. And I just know 
how positive that is for our Guard members.
    A precedent exists with the last five administrations for 
the use of DOD personnel, and Secretary Rood, for surveillance, 
logistics, aviation support, and other assistance. This support 
on the southern border has been carried out with Operation Jump 
Start under President George Bush and Operation Phalanx under 
President Barack Obama.
    Can you discuss the relationship between the DOD and 
Customs and Border Protection personnel on the ground and do 
you see this relationship changing on the extension of Active 
Duty mission? And of course, we understand that it's backing up 
the law enforcement and personnel.
    Secretary Rood. Congressman, as you correctly point out, 
the Defense Department has a long history of supporting Customs 
and Border Protection as well as other Federal agencies in 
support of their civil missions. And the relationship is really 
a very close one, both here in Washington and in our deployed 
units in the field, they live and work together.
    And so as CBP performs their primary mission and their law 
enforcement duties, we assist them, and that takes various 
forms. As mentioned, construction at 22 ports of entry 
recently, not only concertina wire but jersey barriers, vehicle 
obstructions, emplacement of shipping containers and other 
temporary barriers to control the flow of individuals, and then 
medical support, aviation support, things of that nature.
    But it is just a day-to-day working relationship, sir.
    Mr. Wilson. Well the backup and support makes such a 
positive difference and it is so meaningful. With the military 
mission extended to September 30th, 2019, what if any does the 
Department have for transitioning the mission from Active Duty 
to National Guard? What conditions are going to be met? As 
indicated, it's ever changing.
    Secretary Rood. As mentioned, Congressman, when we receive 
requests for assistance from the Department of Homeland 
Security, we look at them for legality, whether we have the 
capability and the appropriateness of the request, and then 
work with CBP in this particular case. In other cases, we do 
other support.
    To refine that here, the National Guard Bureau and the 
State adjutant generals have indicated there's a predicted 
steady state, if you will, that they think they can source in 
terms of their provision. And so where we are unable to meet 
those requests from the National Guard, that is where we have 
looked at Active Duty through the end of this fiscal year, sir.
    Mr. Wilson. Thank you, Mr. Secretary, and Admiral Gilday, 
what opportunities exist for units mobilized to the border to 
maintain a high level of readiness? This is a concern by all of 
us. Can you address the training that DOD personnel receive on 
the Standing Rules for the [Use] of Force?
    Admiral Gilday. I will. So I will take each of those. On 
the first point, sir, I think it ties back to a point that you 
made earlier about readiness. And so when we deploy our forces, 
most people just think that we are consuming readiness. But we 
are also producing readiness during those deployments.
    So as you know, sir, many times at the end of that 
deployment, you are at a higher state of readiness than you 
were going into it because you just accumulate that type of 
hands-on deckplates, leadership, and experience that you 
typically wouldn't get at home station.
    One really good example is the military police that we 
have, under DOD authorities, providing protection for CBP 
should they be overwhelmed at the border; and so the way that 
we have had to train with CBP personnel to make sure that we 
are clear on each of our authorities, to make sure that our 
communications are compatible, to make sure that we understand 
each other's tactics, techniques, and procedures. We ran those 
teams together with CBP through 10 different vignettes, 
training scenarios, both day and night.
    And so we try to expose them to a wide range of 
possibilities. Some of the best training that we have had is 
with the military police. In terms of----
    Mr. Wilson. Enhances readiness. Thank you very much.
    Admiral Gilday. Yes, sir.
    The Chairman. Thank you. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. I have a quick yes-
or-no question. Given the threat description that surrounded 
this order, are the service members at the borders receiving 
imminent danger pay?
    Secretary Rood. No.
    Admiral Gilday. No, sir.
    Mr. Courtney. Thank you. I would just yield the balance of 
my time to Congresswoman Luria.
    Mrs. Luria. Well, thank you, Under Secretary Rood and 
Admiral Gilday. You stated that the military support is for 
three main purposes. In providing forces to stop the tide of 
illegal immigration, stop human trafficking, and stop the flow 
of illegal drugs.
    I would like to hear, Admiral, which of these three 
missions do you think is the most pressing?
    Admiral Gilday. Drugs----
    Mrs. Luria. Human trafficking----
    Admiral Gilday. Trafficking----
    Mrs. Luria. Or personnel crossing the border.
    Admiral Gilday. Difficult to prioritize. All pretty 
important. I would say that I think as we transition to our new 
mission set from the ports of entry to the areas between the 
ports of entry, we bring a skill set with respect to detection 
and monitoring that I think is going to be very valuable for 
CBP in trying to get their arms around all three of those 
problems----
    Mrs. Luria. Okay.
    Admiral Gilday [continuing]. Which could be present at any 
point in the border.
    Mrs. Luria. Well, in that case, I would like to focus on 
the flow of illegal drugs. And it has been reported that, you 
know, a large portion of the drugs do not in fact come across 
the border. They come by sea and our ports of entry.
    And as you know, also myself, as a surface warfare officer 
for 20 years, we know that the Navy used to supply forces 
frequently in support of SOUTHCOM [U.S. Southern Command], 
JIATF [Joint Interagency Task Force] South, to stop that flow.
    I met with Admiral Grady, who's the executive agent for 
Global Force Management for Fleet Forces, and he confirmed that 
the only forces that we're giving to SOUTHCOM currently are 
those that happen to be transiting as an opportunity between 
east and west coasts.
    So I was wondering if you could compare the request for 
forces that we are currently receiving from SOUTHCOM versus 
those that we are meeting, towards the goal of stopping the 
flow of drugs at sea. And what percentage of requests for 
forces from SOUTHCOM would you say have gone unmet in the last 
several years?
    Admiral Gilday. So I think we really need to talk about the 
last probably 18 months under a new President with a new 
National Security Strategy and a new defense strategy.
    And so that new defense strategy racks and stacks problem 
sets for us with respect to China, Russia, North Korea, Iran, 
and the counter-VEO [violent extremist organization] problem. 
And so what we have done in the past year in particular, is we 
have prioritized our resources in accordance with those 
priorities. We just can't do it all.
    As the chairman brought up in his statement at the 
beginning, we have under-sourced readiness for some time. That 
is the Secretary, and the acting Secretary now's, top priority, 
is in order to make us more lethal, we have to be ready.
    And so we have had to ruthlessly prioritize. And quite 
honestly, although the drug problem is a big problem, we have 
historically under-resourced Southern Command against that 
problem set.
    And I--I probably have an unsatisfactory answer for you, 
ma'am, in terms of--in terms of our being able to improve in 
that regard. But I do think--when we have problems like that, I 
do think it requires more imagination to get after it in a 
better way. And so it is looked at. I am just being honest with 
you with respect to the racking and stacking of national 
priorities. It hasn't reached the top.
    Mrs. Luria. So with that racking and stacking of national 
priorities, this is currently the only one in our discussion 
that is being potentially envisioned as a national emergency. 
So it doesn't seem consistent with where we have placed it in 
our order of priority for allocating forces.
    And when you say, use creativity, you just mentioned that 
when we use forces, we are not just consuming readiness, but we 
are producing readiness?
    Admiral Gilday. Yes.
    Mrs. Luria. So that is another element that I would ask you 
to consider, possibly, when we have forces that are not 
actually deployed but in their workup and training phases, to 
be able to participate as well in this mission of combating the 
flow of drugs at sea while they are also building their 
readiness.
    Admiral Gilday. Congresswoman, I think that is a fair 
comment. To your point about priorities, so the National 
Defense Strategy is a strategy. And it has laid out priorities 
that we follow. But reality strikes, we end up reprioritizing. 
And in this case, that is exactly what happened.
    Mrs. Luria. Thank you. I yield my time.
    The Chairman. Thank you. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Admiral, Secretary Rood, thank you for being here. Thank 
you for your service.
    Secretary Rood, thank you for your expertise and the 
dialogue that you are having here today. I am going to ask you 
two questions and then I am going to concede my time to Mr. 
Bergman.
    The admiral indicated that it is hard to answer a negative. 
How many people were deterred, how many people didn't cross the 
border. So I have two simple questions for you. I think they 
are yes or no but I am not going to restrict you to yes or no 
if you feel you need to answer them more broadly.
    So to your knowledge, is the United States border with 
Mexico currently closed? And by closed, I mean is the level of 
protection that is currently being provided by Homeland 
Security and the Department of Defense stopping illegal 
immigration? Has it stopped? Has illegal immigration stopped 
between Mexico and the United States as a result of the current 
level of protection from Homeland Security and DOD?
    Secretary Rood. No. Just in the last 3 months alone, CBP 
reports apprehending 154,000 illegal immigrants.
    Mr. Turner. To your knowledge, Mr. Secretary, are there 
portions of the U.S. border between Mexico and the United 
States where individuals can enter the United States illegally, 
unimpeded?
    Secretary Rood. Yes.
    Mr. Turner. Thank you, Mr. Secretary. I yield my time to 
Mr. Bergman.
    Mr. Bergman. Thank you and I appreciate you yielding time, 
Mr. Turner. I am glad you both are here.
    Just for clarification, I want to make sure that nothing 
has changed since I took off the uniform about 10 years ago and 
that you only pay a guardsman or reservist when they are 
performing some type of duty. Correct? Okay.
    Admiral Gilday. Yes.
    Mr. Bergman. So the point is there are Active Duty 
personnel that we have down there today. You are paying them 
normal pay rate. No combat pay. Just our normal pay rate. Any 
TAD [temporary additional duty]?
    Admiral Gilday. Sir, it depends, but those numbers are 
very, very small.
    Mr. Bergman. So the point is----
    Admiral Gilday. So they do receive, when they deploy for 
more than 30 days away from home station, they do receive a 
modest family separation allowance.
    Mr. Bergman. Okay, so family separation allowance. But the 
bottom line is minimal to no additional cost by utilizing 
Active Component personnel. Any idea how many of the Active 
Component personnel that you are using down there, it's their 
first deployment since joining the military?
    In other words, they are not in a dwell time because they 
have been stressed over a period of time?
    Admiral Gilday. Sir, I would like to take that for the 
record.
    [The information referred to was not available at the time 
of printing.]
    Mr. Bergman. Okay. Well, because we know the troops coming 
off the line need to get R&R [rest and recuperation], need to 
get refreshed, need to get retrained, in some cases re-
missioned if they change units. Any special skill sets that are 
required on the border right now that we might call HDLD, high 
demand/low density assets that would be getting stressed?
    Admiral Gilday. Not skill set so much, sir, but I would say 
if we are stressed anywhere it is rotary wing just because of 
the demand we have for helicopters in Syria, in Iraq, and 
Afghanistan. So we have been a bit pinched in terms of helos, 
to be honest. But not at a point where we have significant 
concerns about them----
    Mr. Bergman. Okay. So stress on the flight hours on 
airframe as opposed to time on the pilot seat, button seat? 
Okay.
    Admiral Gilday. Yes, sir, just availability of the assets 
with crews that are at a, let us say, a 1:2 dwell.
    Mr. Bergman. Okay. Is it fair to say that if we have a lot 
of first-time folks deploying, this is why they joined, maybe 
in a slightly different, you know, fight, if you will, or 
mission, probably more appropriately said, than they originally 
envisioned on their first deployment.
    But are we making them more capable because of the training 
and what they are doing on a daily basis here so that when we 
do have to deploy them somewhere in the world that they are 
more ready and ready to take on whatever mission?
    Admiral Gilday. Sir, I would say in general, yes. 
Specifically, down to every person I think it would be 
difficult to make that argument that the medical personnel, for 
example, who are doing medical screening may not be optimizing 
their skill sets. But that said, it is a critically important 
mission at the moment.
    Mr. Bergman. We know that no matter what the situation is, 
whether we are dealing with combat injuries on the battlefield 
or dealing with humanitarian assistance, disaster relief, the 
need for medical personnel, whether it be doctors or nurses, is 
going to continue to be stressed no matter what we are using 
them for.
    So with that, for those of you who have been around a 
while, the Three Block War--humanitarian assistance, keeping 
the peace, and making the peace--bottom line is, let us stay in 
that first one or two, especially in that middle block here. 
And I yield back.
    The Chairman. Thank you. If I could just follow it up with 
a quick question based on Mr. Turner's question there. So DHS 
asks you basically for help at the end of the day with what 
they are doing. And I guess the question that occurred to me 
is, do you ever say no?
    Because by Mr. Turner's definition there, I mean, to 
actually close the border to stop anybody from ever being able 
to cross in an unauthorized manner, anything across, I would 
think you could plop 50,000 U.S. troops down there on the 
border, you would still have a hard time doing that.
    And also note for the committee, and I am sure Mr. Turner 
is aware, every single combatant commander that we have has 
requests that go unfilled. It is absolutely true, because there 
is too much in the world that we need to do. We don't have the 
resources for all of them. I guess that is the biggest concern 
from this discussion here is, yes, we can talk about the border 
all day long, and if that is the only thing that you had to 
worry about at DOD, well, heck, 5,900, that is nothing.
    I mean, why not 50,000, okay? But we have got other needs 
in the world which we will hear about in great detail in this 
committee. And the reason we are starting here is because this 
is not primary to our mission. And if we start down this road 
with what those previous questions were and say, you know, DOD, 
it's all about the border, where does it stop?
    So, under what circumstances would you say no; look, yes 
there is a border problem. There will always be a border 
problem. We are not going to completely shut that border off. 
But we also have ISIS [Islamic State of Iraq and Syria]. We 
also have Afghanistan and Syria. We are worried about Russia 
and China. Do we have a sufficient presence to deal with 
deterring that threat?
    So, under what circumstances, when DHS comes over and says, 
hey, we need your equipment, we need your troops, do you say, 
look, we don't have the ISR [intelligence, surveillance, and 
reconnaissance] that we need in Africa, all right? We don't 
have, you know, enough of a troop presence in Eastern Europe to 
deter Russia, so that is going to take priority.
    Under what circumstances do you say that?
    Secretary Rood. Mr. Chairman, when----
    The Chairman. I know that is not directly your call. That 
is more the Secretary of Defense's call. But I am curious as to 
your perspective.
    Secretary Rood. Yes, sir. When the Department of Homeland 
Security or another civil agency makes a request for 
assistance, we look at it from the legality of it, the 
appropriateness--do we have a capability that can actually meet 
that need? And then we do look at readiness and the impact on 
our other mission areas.
    And the same approach, basic approach applies whether it is 
DHS requesting support at the border or----
    The Chairman. What would be most helpful on this is if you 
could give us an example of when you did say no to DHS. You 
know, and I will drub it up, what if they asked you for $10 
billion out of MILCON [military construction] to help build the 
wall? Would you say no then?
    Secretary Rood. Well, with respect to use of MILCON 
authorities, of course, the President would need to declare a 
national emergency and the Secretary of Defense make certain 
determinations before we would ever reach that question. And so 
the Department of Homeland Security couldn't make that request 
directly to us. It would need to be initiated by the 
President's declaration.
    With respect to your question about where we say no, we 
haven't always approved every request from the Department of 
Homeland Security, but we generally work with them to find ways 
that we can adjust what we are going to provide to meet the 
mission need. Sometimes they don't have a full understanding of 
what we can do.
    The Chairman. Okay. Thank you. Mr. Garamendi.
    Secretary Rood. Yes, sir.
    Mr. Garamendi. Thank you, Mr. Chairman.
    In case nobody noticed, we are in the midst of a raging 
debate about this whole issue of border security, and 
apparently the President wanted to use the military like 10 
days before the election. All well and good.
    Specific question probably more for the record. What were 
the precise talents, skill sets, and operation that the 
individual units had when they were deployed to the border, the 
5,900? What were their skill sets? And that is unit by unit. So 
please deliver that to us.
    Secondly, there's a major question of readiness. It has 
been raised here over and over. And thirdly, apparently the 
military is good at stacking containers to form some sort of a 
wall and laying concertina wire. What else did they actually 
do? And apparently they were deployed in the southeastern part 
of Texas, and the threat moved to San Diego and Tijuana.
    Did the military move also to address that threat? All for 
the record, having asked for that specific information, I would 
like to turn over my remaining time to the esteemed lady from 
Oklahoma, Ms. Horn.
    [The information referred to can be found in the Appendix 
on page 72.]
    Ms. Horn. Thank you very much, Mr. Garamendi, and thank 
you, Mr. Secretary and Admiral for being here today. My 
question focuses back on readiness for a moment, and I am 
curious as to the Active Duty troops that were deployed, where 
they were before their deployment and what they were doing 
before their deployment and what it took to get them down 
there.
    And then the second part of my question is given that we 
have discussed the historical nature of the National Guard 
working with DHS and taking the lead on some of these, does the 
National Guard have the capability to accomplish the same 
mission--concertina wire and hardening of the border and that 
sort of thing?
    Admiral Gilday. Congresswoman, your first question was 
about where these forces were before they actually went down to 
the border. So they were based in the continental United States 
and they were ready forces--ready to deploy within 30 days.
    And so we always have a reserve of forces that we can draw 
upon for--you name an emergency that we are going to respond 
to, or we need to send additional forces to plus-up for a 
particular mission somewhere in the globe.
    And so those forces are trained, certified, manned, 
trained, and equipped in order to do their specific tasks. And 
we selected them specifically because we felt that they were 
best suited based on the inventory of forces that we had, that 
they were best suited with those skill sets in a timely manner 
to deploy at the right readiness level and properly trained.
    With respect to your second question, which had to do with 
whether or not Guard has the skill sets for concertina wire, 
they do and they have in the past, but not in this particular--
but not in this particular operation.
    Ms. Horn. As a follow-up to that, you mentioned a 30-day 
turnaround for deployment. What is the difference in turnaround 
time for deployment between the Active Duty troops that 
deployed and a National Guard unit being deployable in that 
time?
    Admiral Gilday. Ma'am, I will have to get back to you with 
specifics on those corresponding dwell times between both 
Active and Guard to give you a precise answer.
    [The information referred to was not available at the time 
of printing.]
    Ms. Horn. I yield back my time.
    The Chairman. Thank you. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. Unfortunately, I am 
painfully familiar with this topic, I have been on the Homeland 
Security Committee for 15 years. And while we have talked a lot 
today about the last 12 to 13 years where we have been 
repeatedly sending Reserve and Guard and Active Duty troops 
down there, it has been going on since the Alamo and every 
decade in between, we have used DOD assets for that mission.
    But to get to the chairman's question in the initial part 
of this hearing, what is it going to take for us to not have to 
continue this pattern? We are going to have to adequately fund 
the Department of Homeland Security instead of continually 
reaching into DOD to subsidize that department.
    It has been inadequately funded since its inception by 
Republican and Democrat administrations. That has to be 
addressed. So one of the things this President's trying to 
address, been asking for money for fencing. And I am just 
astounded by the fact that we continue to act stupid in 
Congress and fuss over things like $5.7 billion in fencing and 
it cost us $11 billion to shut the government down.
    I would like to know, Admiral, do you know how much it has 
cost for these last deployments that we have had down there, 
how much it costs the DOD?
    Admiral Gilday. So I can tell you, sir, Active Duty, our 
projection through the end of this month is $132 million, and 
for the National Guard in the last fiscal year was $103 
million, and we project in fiscal year 2019 to be $448 million.
    So it will be about $550 million overall for the Guard and 
the--it is difficult to give you an accurate estimate right now 
on Active Duty just based--as I have described, the requirement 
is evolving and fluctuating.
    Mr. Rogers. Yeah, and that is just the most recent. I mean, 
we continue to do this and we have got to adequately fund the 
Department of Homeland Security, specifically Customs and 
Border Protection. With that, I yield the balance of my time to 
General Kelly.
    Mr. Kelly. Thank you, Mr. Rogers, for yielding time. Just 
very quickly, you know, I spent my whole military career as an 
engineer, and I was what they call a sapper on the Army side. 
You know, what we do is build obstacles, okay?
    And there are many purposes for obstacles and I am sure it 
is the same way in the Navy. We have turn, fix, disrupt, and 
block. And I use an analogy, locks don't keep burglars out of 
your houses or cars. But I do know in my neighborhood last 
year, there were burglars going through and breaking into all 
of the cars that were unlocked.
    So those locks didn't keep them from getting in a car, but 
it did slow them down. And barriers or obstacles--I prefer not 
even barriers--obstacles have different purposes and they move 
people to where they are.
    Do you agree that obstacles never, unless they are covered, 
unless they were constantly watched, that you can always get by 
or bypass them, however they do make it easier to where you 
locate people coming across illegally?
    Would you agree with that, Vice Admiral and Mr. Secretary?
    Admiral Gilday. Yes sir, in the abstract, I agree with 
that. There are a lot of variables that go into wall placement, 
but I think you are right in the fact that a barrier is 
ineffective unless you are surveilling it and you can react if 
it's breached.
    Mr. Kelly. And I want to touch just a little bit about 
whether it's Guard or Active Component, you guys agree that the 
new policy is that Guard and Reserves and Active Component is a 
force of one, and they all have operational requirements?
    And I want to use my small State of Mississippi, which has 
about 10,000 members in our Mississippi Army National Guard and 
about 1,500 in our Air Guard, but currently, we have one 
company, Charlie Company, First Battalion, 114th Aviation that 
is on the border supporting this mission and doing great work 
down there.
    That being said, we have a BCT [brigade combat team] doing 
Operation Spartan Shield in Kuwait, Jordan, other places, so 
that is about 4,500 of our 10,000 Army soldiers. We have the 
184th ESC [Expeditionary Sustainment Command], which is also a 
headquarters which is in Kuwait right now doing logistics.
    We have State missions, we have these little things called 
hurricanes that we have to respond to, we have all these forces 
deployed as part of the Active force, as part of the rotational 
forces we have to defend our missions. Is that a reason to use 
maybe sometimes Active Duty forces when Guard forces can do the 
same thing, Admiral?
    Admiral Gilday. Yes, sir. As you said initially, it is one 
force; who's best suited for the task? And as I mentioned 
earlier, the Guard has sustainability issues as well that we 
can't just wish away just like the Active side does.
    And so I think it is a balanced approach in terms of how we 
use--how we put those people to best use.
    Mr. Kelly. And thank you for that.
    I yield back, Mr. Chairman.
    The Chairman. Thank you. Mr. Norcross.
    Mr. Norcross. Thank you, Chairman.
    Planning. Nobody can guess what the President's going to 
do, but we have some indications what he might do. Have you 
taken into account, outside of the personnel, the cost for 
construction of a barrier different than the wire and fence 
that you are presently working on? If you were to do the 230 
miles.
    Admiral Gilday. Sir--maybe you should take this one.
    Secretary Rood. Well, as you mentioned, Congressman, a 
national emergency declaration has not been issued by the 
President. And if it were, there are other legal requirements 
that we have done prudent--pre-planning to understand the law 
and our obligations under it.
    And depending on what the Department of Homeland Security, 
CBP would identify and how those requests would be met, that 
would determine the type of wall and the cost----
    Mr. Norcross. So you are not looking at any scenarios right 
now at all? There's no pre-planning----
    Secretary Rood. We are merely----
    Mr. Norcross [continuing]. Whether you are going to put a 
concrete barrier or some steel up or some wire?
    Secretary Rood. Yes. It would depend on the circumstances 
that we would reach at that moment. And obviously, we have done 
prudent pre-planning. I have seen, as you have, the statements 
the President has made regarding the possibility of a national 
emergency. So we have looked into how that would operate.
    Mr. Norcross. So what are your ranges of cost estimates?
    Secretary Rood. Again, it--there is no--after the President 
were to declare a national emergency----
    Mr. Norcross [continuing]. We understand the process. But--
--
    Secretary Rood. But--but with----
    Mr. Norcross [continuing]. You have to look down the road 
and anticipate. We could put a full barrier up, a 35-foot wall. 
We could put wire. You are not going to wait until that phone 
call comes to start planning. That is one thing that you do 
well.
    Secretary Rood. Within such a declaration, a national 
emergency would be the citation of the authorities under which 
it is done. We have limited authorities. Depending on what 
those authorities are, sir, it would define how much money was 
available. And we would obviously work with the Department of 
Homeland Security to get their latest prioritized listing.
    And from all those factors--land availability, cost of 
land, other things, would come into play if you were talking 
about a barrier construction or even the placement of wire. 
Those are considerations that would need to be reached at that 
point.
    Mr. Norcross. So no pre-planning in terms of cost and 
personnel, or what it would take to do the job that is taking 
place until you get that declaration?
    Secretary Rood. We would have--in that circumstance, we 
have not made any decisions nor formalized what those would be. 
But obviously, depending on what the type of barrier the Army 
Corps of Engineers in the barrier case would be asked to do, 
they have been looking at different types of construction.
    Mr. Norcross. Is this the most cost-effective way of 
putting up a barrier?
    Secretary Rood. Sir, we would respond to what the 
Department of Homeland Security and the CBP identified in that 
area. The Army Corps of Engineers has done construction, parts 
of the 654 miles of barrier on the southern border, over our 
history. And those things vary, given the circumstances at the 
time.
    Mr. Norcross. I yield back. Thank you.
    The Chairman. Thank you. Mr. Conaway. Is that correct? I 
don't think he is here. He is not here.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Thank you both for being here. And I was on the border a 
week ago today, in the Brownsville, McAllen area. And talking 
to the people there, they have a very good plan of what they 
would like to do if they were given more assets, more money, 
more resources.
    So my first hope is that we as a Congress will give 
Homeland Security more of what they need. And that they have a 
well-defined plan of how they could put that to use.
    But if that doesn't happen, the President will have the 
choice he will have to make, of declaring a national emergency 
and then using money from somewhere to build some kind of 
barrier.
    And my hope--Mr. Rood, I am going to direct this to you. 
And maybe this is a little speculative and you can't give me a 
definitive and final answer, but my hope would be that 
emergency money for that purpose would come out of emergency 
money from another purpose, and we would have to replenish that 
later; like disaster relief.
    I mean, I would hate to see that happen. But that would be 
the best possible alternative I can think of, especially 
compared to taking money from military construction. Because 
those projects have been in the pipeline for years and years, 
and that would be disruptive.
    So my hope would be it would be emergency to emergency. Do 
you have any thoughts on those lines, Mr. Rood?
    Secretary Rood. Well, Congressman, of course at this stage 
the President has not chosen to declare a national emergency. 
And if he were to do so, then the Secretary of Defense, the 
next step in the process would need to determine that 
undertaking military construction projects.
    Assuming that that was the authority authorized by the 
President in his declaration, then the Secretary of Defense 
would then need to make a determination that, by undertaking 
these military construction projects, that that was necessary 
to support the use of the Armed Forces. And then we would flow 
from there.
    There are only limited authorities available to the Defense 
Department if directed by the President or if authorized, I 
should say, to pursue them. And he would identify, in his 
declaration, what those authorities were.
    Mr. Lamborn. Okay, thank you. And I will just reiterate. My 
hope is that Congress does the right thing, and we authorize 
money and not--we don't have to go down that road at all.
    General Gilday, I would like to ask you a question. And you 
have already done a good job of explaining the benefits that 
accrue when these missions are being performed, to the people 
doing those missions.
    And you talked about facilities, troops, engineering, 
medical, and rotary wing. When it comes to readiness, we have 
talked about construction but we also talked about training. 
That is the other component.
    We have used our troops in a variety of worldwide 
humanitarian missions: Ebola outbreak in Africa, tsunamis, 
earthquake relief, and others. And there is a humanitarian 
component to the southern border crisis, as well as a national 
security component.
    When our medical troops, for instance, are helping Homeland 
Security on the border, are they gaining experience that helps 
them? Or if they were doing a humanitarian mission in Africa, 
does that help them in their professional and military careers?
    Admiral Gilday. Yes, sir. As I mentioned earlier, I think 
with each of the skill sets, it varies a bit. The example I 
gave with medical, so they are doing follow-on screenings after 
CBP does their initial medical screening.
    So most of those referrals are routine elements and so I 
could make the argument that if I deployed those same people 
overseas to Afghanistan, that they might receive a higher level 
of training.
    But I think that we have placed a high degree of importance 
on the work that they are doing on the border. They know it is 
important work. They know it must be done.
    I do think that--again, to answer your question, I do think 
there's varying degrees, to be honest with you, on how much 
training value that you receive from each particular mission, 
some more than others.
    Mr. Lamborn. Thank you.
    Mr. Chairman, I yield back.
    The Chairman. Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chairman.
    During Operation Desert Storm and after 9/11, Presidents 
invoked the National Emergencies Act, NEA, twice, citing the 
emergency military construction authority. According to the 
Department of Defense records, the Department funded 18 
projects.
    I am looking at these projects right now; airfield runways, 
medical facilities, barracks, security measures for weapons of 
mass destruction, et cetera, et cetera, to name a few. All of 
those projects were determined as necessary to support the 
Armed Forces in the declared emergency, which makes sense.
    You need a runway for aircraft to land, places for service 
members to live and receive health care. Admiral Gilday, how is 
the border wall necessary to support the use of Armed Forces 
and what authorities would be needed to make that 
determination?
    Admiral Gilday. Sir, that is a hypothetical. I----
    Mr. Carbajal. You can give me a hypothetical answer.
    Admiral Gilday. I will give you a hypothetical answer if 
that is okay.
    So the President has a range of different authorities that 
he can invoke. And each of those authorities are tied to laws 
that have specific requirements that would dictate how that 
money--that would dictate the determination of the calculus 
that the Department would go through to determine whether or 
not you could justify using those funds to build a barrier.
    Mr. Carbajal. Do you know what those authorities are?
    Admiral Gilday. Broadly I know what they are, sir, I have 
not looked at them in detail because I am not an engineer. But 
I know that there are specific authorities that, as you have 
stated, we would have to show that DOD benefits.
    You know, whether the argument would be that we no longer 
have to deploy 5,900 people to the wall, we would have to take 
a look at that more deeply to see if that is a justifiable, you 
know, cause-effect.
    Mr. Carbajal. Thank you.
    Admiral Gilday. Yeah.
    Mr. Carbajal. How is the Department determining which 
military construction projects can be scrapped in order to fund 
the wall? I am sure you are looking at that now in light of the 
rhetoric and the discussion that is ensuing.
    Which projects would be scrapped?
    Secretary Rood. Congressman, of course, the President would 
need to invoke a national emergency and cite the use of section 
2808 of title 10, which is the military construction provision, 
to authorize such an activity. The President's not, of course, 
chosen to do so; therefore, we have only done preliminary, 
prudent pre-planning, we have not developed a specific list of 
military construction projects because the President hasn't 
taken that step.
    Mr. Carbajal. Thank you. Last year, I received a call from 
some of my constituents who had to endure living on base in 
housing environments with their families, that they are 
expected to live--at Fort Benning, Georgia, to be exact.
    I specifically sent a letter to Secretary Mattis regarding 
this constituent call and the serious concerns raised. This 
family lived on base for about 5 years, and because of the 
children being exposed to high levels of lead, they are now 
dealing with health-related disabilities and other symptoms.
    Funds are required to address these deteriorating living 
conditions but now there is a chance that we will neglect 
service members again. This time it will be for, again, a 
needless wall. Could any of these obligated funds for MILCON 
and family housing be used to improve the living conditions for 
service members and their families?
    Secretary Rood. Congressman, again, the--this would be a 
hypothetical situation that the President has not chosen to 
invoke a national emergency and authorize the use of section 
2808 military construction funds. So we at the Defense 
Department are not making trades with those funds at this time.
    Mr. Carbajal. But will you agree, if you had to take 
funding from existing DOD priorities, it would leave some of 
those priorities without funding?
    Secretary Rood. The--if----
    Mr. Carbajal [continuing]. Or is there enough funding 
surplus right now available for the wall?
    Secretary Rood. Any use of military construction funds for 
purpose B instead of purpose A it would obviously come from one 
source to another, sir.
    Mr. Carbajal. Thank you. I touch on this because I also 
have Camp Roberts in my district, and I am informed there is an 
important road for really important training and facilities 
that exists on this base. And currently, that road cannot be 
traversed. And again, these funds that would go towards a wall 
would be taken away from being able to rehabilitate that road. 
So----
    The Chairman. The gentleman's time has expired.
    Mr. Carbajal. Thank you very much, I yield my time back.
    The Chairman. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Secretary Rood, Vice Admiral Gilday, thanks so much for 
joining us. Up here in the corner. There we go.
    Secretary Rood, I just wanted to ask one simple question, 
just yes or no. Are the troops that are currently deployed 
along with our Customs and Border Patrol agents, are they a 
help in helping the Customs and Border Patrol agents achieve 
the counter-narcotics missions that they have been charged 
with? And do the troops and their capabilities also help the 
Customs and Border Patrol agents in stymieing the flow of 
narcotics into the United States?
    Secretary Rood. Yes.
    Mr. Wittman. Very good. Thank you, Mr. Secretary.
    I am going to now yield the balance of my time to Mr. 
Mitchell.
    Mr. Mitchell. Thank you, Mr. Wittman, I appreciate that.
    Secretary Rood or Vice Admiral, a question for you. First, 
let's start with--let's not deal with hypotheticals, which some 
of my colleagues want to talk about, if-then.
    We are here at this moment of time talking about this 
because we failed to provide adequate resources to DHS to deal 
with their own mission, their own challenges. So we are now 
having to assist those--supplement those resources.
    Can either of you tell me, of the approximately $500 
million we are talking about estimated for the year, what 
percentage of those needs DHS could address themselves if 
properly funded?
    Secretary Rood. Well, certainly the Department of Homeland 
Security, CBP looks, as we understand it, within their own 
resources and authorities first before asking for augmentation 
or supplemental----
    Mr. Mitchell. Can you talk a little louder, sir? I am 
sorry.
    Secretary Rood. Certainly the DHS, CBP looks within their 
own resources--as we understand it from them--before asking for 
supplementation or augmentation from the DOD. And so the 
specialized skills--there are some specialized skills we bring 
to the table, but in other cases if they possess those 
capabilities at DHS and CBP, they could do it themselves.
    Mr. Mitchell. I appreciate the general response. Let us 
try, Vice Admiral, what percentage of the overall is actually 
military-specific versus a lack of resources at DHS, sir?
    Admiral Gilday. So to answer your question, sir, none of 
the capabilities that we are providing are combat capabilities, 
it is not a war zone along the border. And so all the, you 
know, I talked about aviation, I talked about paralegals, 
mechanics, facilities, medical, concertina wire, none of that 
is a unique military skill set.
    Mr. Mitchell. So the reality is we are sitting here today 
discussing this because we failed to adequately deal with a 
comprehensive solution to our southern border. So now, we are 
trying to basically put our finger in the holes until Congress 
does its job.
    Would you disagree with that, Vice Admiral?
    Admiral Gilday. Sir, if I took that same argument and said 
that we need to use DOD to respond to a hurricane. There are 
certain situations where, you know, one of our primary missions 
is defense support to civil authorities. And so I think that 
one is a tricky one to answer.
    Mr. Mitchell. Thank you.
    Mr. Chair, I will yield back. Thank you very much.
    The Chairman. Thank you. I do want to make a quick note on 
the budget. The President made his budget request for the 
Department of Homeland Security in February of 2018. Congress 
fully met that request, both the Senate and the House. So what 
whatever crisis occurred to him in the months that followed, it 
was not at the top of his mind in February of 2018.
    That was the budget request and we fully funded it. This is 
not a question for you, gentlemen, this is just, you know, to 
make the point. We are hearing now from the--I mean, gosh, if 
we just gave more money to the Department of Homeland Security, 
this wouldn't be a problem.
    And, you know, it's odd for me to be making this point, you 
know, with the fiscal conservatives on the other side of the 
aisle, we are $22 trillion in debt. Our deficit is going to be 
$1 trillion this year. We just cut taxes by somewhere in the 
neighborhood of $2 trillion.
    On this committee, we hear repeatedly about all the areas 
of the Department of Defense that have gone underfunded. We 
don't have--well, I was going to say, we can't print money. We 
can, in fact, print money. But there's a downside to that, as I 
think all of the Republicans would acknowledge.
    So where are you going to find all this extra money, you 
know, for the Department of Homeland Security sort of implied, 
well, so just get more money. We also have a few other needs in 
the country that have gone unmet. We have a $600 billion 
infrastructure deficit by most estimates, to the point where 
water is poisoned and bridges are collapsing in the United 
States of America.
    So we have to make budget choices. And I will also point 
out that go back to 2005 and to now, we have quadrupled the 
number of Border Patrol agents, we have built 700 miles of 
wall, we have drones and sensors, we have massively increased 
the amount of money that we have spent on border security.
    So I am not sure the solution here is just spend more money 
so that way we don't have to steal it from the Department of 
Defense. We have got a make a budget that works for all of us. 
And this is going to be something we are going to wrestle with 
once we try to get our budget in place for this year, because 
there are a lot of DOD needs.
    The discretionary budget, a little over $1 trillion, okay? 
And Department of Homeland Security is part of that. We, at 
DOD, are like 55 percent of that. So before you get too excited 
about giving more money to DHS, you have got to find it 
somewhere. You know, if we can find it somewhere, I am wide 
open to the discussion. But we have to make choices.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    I will avoid getting into the broader budget issues, which 
obviously affect a whole variety of things. I would simply 
point out that with DOD, Homeland Security, or any of the 
agencies, they have to formulate their budget months in advance 
of it even coming to us.
    One of the things that changed is that now we have 
thousands and tens of thousands of migrants who are coming in 
caravans which we have not seen before. And I think members, if 
they look at the statistics which are provided by the 
Department of Homeland Security, the days when we had a greater 
number of people, but most of them were from Mexico and you 
could simply put them back across the border, are very 
different from these large family groups, 10,000, 12,000 people 
coming. So yes, it changed the requirements.
    And as we have been talking, if anything, we have to be 
more flexible to respond to changing circumstances. I think 
that is what the President is trying to do. I would prefer he 
not have to resort to DOD to make up for gaps in Department of 
Homeland Security funding. But I do think it is important to 
acknowledge that things change and our government has to 
respond.
    The Chairman. And that is very true. And we would be in a 
better position to respond if we weren't $22 trillion in debt. 
So the more resources you have the more flexibility you have. 
And we face some very difficult choices no matter how the 
circumstances come down to us.
    Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman. I am glad the 
discussion has taken this turn.
    Mr. Rood, my understanding is that you are familiar with 
the 2018 National Defense Strategy because you helped write 
that. Is that correct?
    Secretary Rood. I didn't help write it, sir, I came in 
afterwards. But I have been helping implement it.
    Mr. Keating. You are familiar with the contents?
    Secretary Rood. Yes, sir. Yes, sir.
    Mr. Keating. What, in your opinion--just in a sentence or 
so--what is the use of that document? What is the importance of 
that for utilization purposes?
    Secretary Rood. Yes, to guide the activities of the Defense 
Department and others and prioritize our efforts.
    Mr. Keating. Yes, I would suggest too that it is also an 
important document as well when we are looking at the overall 
strategic priorities. It is an important budget document as 
well for this committee and for Congress, because that is what 
we look towards to do the, you know, fiscal year 2019 to fiscal 
year 2023 budget requests.
    So although things do change quickly, when I heard the 
admiral say that, you know, it is hard to get priorities, when 
you were asked that question about our activities in the 
southern border versus what is in that defense strategy 
document, or we have to be creative.
    That creates problems for us doing our job and using that. 
For instance, Mr. Rood, in that, that whole document, was the 
term southern border ever--those words ever in that document?
    Secretary Rood. I don't recall that in the unclassified 
version, sir.
    Mr. Keating. Was the word caravan ever used?
    Secretary Rood. Not that I can recall.
    Mr. Keating. So here is our dilemma, as a committee and a 
Congress, we have to have priorities. Money is finite. And we 
have to make decisions on funding.
    So I think this is an important hearing as a discussion 
point to go from going forward because things aren't in sync in 
terms of the way I view them. We have to make those decisions. 
We have to assess priorities. This committee has a history--
this Congress has history of really relying on our defense and 
our military to tell us what those priorities are so we can 
fund them.
    I think we are at a point where I am hearing terms, you 
know, just hard to give priorities, everything is important, 
things that aren't even mentioned in the strategic document we 
are supposed to use to make those priorities are now coming to 
the forefront and they are being said there is crisis 
surrounding those things.
    But the two things have to get in sync. And I think instead 
of a question, you might want to comment, how can this 
committee best function? Because we can't function giving those 
resources going forward, when we have to take a turn and look 
at different views, quote/unquote, or we have to be creative.
    Those things really make our job next to impossible. Could 
you comment on that?
    Secretary Rood. Sure, I will--Congressman, I would say--
commend your knowledge and the way that you are following the 
National Defense Strategy. That is our guidepost in the Defense 
Department. We are trying to live that life to make that vision 
of what we are saying.
    And there are some hard choices that are described in that 
document, in setting out that vision for the future. And some 
of it is an uncomfortable reality that we as a Nation need to 
confront.
    With respect to support to civil authorities, I would say 
those kinds of requests--and we do not lack the ability to 
prioritize our resources and I think you will see in the coming 
budget that we have made a major effort to try to track along 
the lines of the National Defense Strategy.
    With respect to support to civil authorities, of course, 
this is a longstanding activity the Department of Defense has 
done. And it is not just limited to the southern border. I 
mean, for example, this coming weekend at the Super Bowl, the 
Defense Department will provide assets in support of civil 
authorities. When the U.N. General Assembly meets in the 
summertime in New York or in September, we will also provide 
support to civil authorities for that type of activity. And 
there is a range of others. Fires, floods, et cetera.
    Mr. Keating. I would just say this. That although----
    Secretary Rood. Yes.
    Mr. Keating [continuing]. Parenthetically I have a great 
deal of confidence in the defense of the New England Patriots, 
I also want to say this, that has been traditionally done.
    But I see a difference in scope that is occurring with the 
discussions we are having now with the southern border and the 
effect of that on our readiness, on those five central areas of 
threat--China, Russia, North Korea and Iran. and terrorist 
groups.
    And that document that is our--I think our guidepost, going 
forward, the things that all of a sudden are getting so much 
more, you know, resources drawn to them aren't contained in 
that.
    And I will just say this because my time is out. That we 
have to do a better job if we are going to act in a bipartisan 
way, listening to our military and defense, to have a clearer, 
more accountable and a more timely demonstration of what these 
priorities are.
    I yield back, Mr. Chair.
    The Chairman. Thank you.
    Ms. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    And thank you, gentlemen, for your role in keeping our 
Nation safe from threats, both foreign and nearby.
    And Admiral, you said that it is not a war zone down there. 
I would just like to pause a little bit on that because I had 
an opportunity to go in October to the border. And I came away 
with the impression that we are at war. And it is with the drug 
cartels.
    As I spent time with the Border Patrol agents, and we could 
actually see the scouts on the other side of the border, and 
they talked about how we are outmanned and out-funded, in many 
ways, and how they are taking advantage of so many people in 
this process. And people are dying.
    Last year, we lost 72,000 people to drug overdoses, 72,000. 
That is more people than died during the entirety of the 
Vietnam war. And so we have a mission to protect people's 
lives, including to counter the drug crisis.
    And the drugs are flowing across our border. Our agents are 
doing a wonderful job. They are finding a lot of drugs, and 
that is what people talk about, we are finding drugs at the 
port of entry. And I champion that.
    But I also know there are a lot of drugs that are making it 
across that we are not catching, and they are ending up in 
Missouri. And they are ending up in my families that I have 
talked to, there are parents whose child has died of a heroin 
overdose.
    That is why we have got to counter this. The Missouri 
National Guard was deployed there last summer. They did an 
amazing job. They had two UH-72 crews. During the 6 months they 
were there, they had 470 apprehensions and they got 1,986 
pounds of marijuana that was seized. I thank God for what they 
are doing, that that didn't end up in our country.
    But they are doing an amazing job. And Congress has 
actually given the DOD the ability to provide military support 
to law enforcement agencies, specifically for countering the 
counterdrug purposes; section 284 of title 10 of the United 
States Code authorizes the DOD to provide support to 
counterdrug activities to control the transnational organized 
crime.
    The law clearly identifies various activities that DOD is 
authorized to conduct, including the construction of road and 
construction of fences, light installation among smuggling 
quarters, aerial and ground reconnaissance, transportation.
    So I guess, two questions I would like to focus on. How 
long has the Department of Defense been providing support to 
counterdrug operations at the border? And can you please 
provide specific examples of how DOD is carrying out the 
authorities authorized by Congress?
    Secretary Rood. Congresswoman, we have, at the Department, 
provided support to counterdrug missions at the Department of 
Homeland Security and, indeed, other civilian agencies, for a 
very long time, for decades. That support continues.
    As you correctly point out, section 284 of title 10 does 
provide the Secretary of Defense the authority in performance 
of that counterdrug mission, such as blocking drug-smuggling 
corridors, to erect barriers, fencing, provide road 
construction, things of that nature, to aid in that 
counternarcotics mission.
    Mrs. Hartzler. So you are saying that Congress has 
authorized the Department of Defense to build a fence to 
counter drugs?
    Secretary Rood. If it meets the----
    Mrs. Hartzler. That is already law?
    Secretary Rood. Yes, that is right. If it meets that 
criteria in section 284, yes, ma'am.
    Mrs. Hartzler. Okay. How many miles of fence have been 
built, to date, under this authority?
    Secretary Rood. I will have to take, for the record, the 
specific amount of fencing built under that authority. Now, of 
course, there are 654 miles of barrier at the southern border 
today.
    [The information referred to was not available at the time 
of printing.]
    Mrs. Hartzler. Right. And I think that it is very clear, we 
have already given, then, the authority to do this. And we do 
have a very critical mission to keep people safe and to make 
sure that people don't die as a result of these transnational 
drug cartel activity. And currently, they are.
    So it is imperative for us to find a solution. And I am 
very hopeful that in the next 3 weeks, we will come together in 
a bipartisan fashion to address this security issue as well as 
the humanitarian issue that Ranking Member Thornberry 
mentioned.
    Because we have a 42 percent increase in number of family 
units, and we have 60,000 unaccompanied children that were 
caught last year, 60,000. I am a former teacher and a mom. This 
is a humanitarian crisis. We had two children die.
    As long as there is this incentive with an open border, the 
drug cartels are going to continue to take advantage of women 
and children, and people are going to die. So thank you for 
what you are doing.
    I yield back.
    The Chairman. Mr. Kim.
    Mr. Kim. Hi. Thank you, Mr. Chairman.
    Thank you so much. Good morning, Secretary Rood, and good 
morning, Admiral Gilday. I wanted to build off of a question 
that the chairman asked earlier about the process of review for 
the DHS request.
    Now, when we are dealing with crises and emergencies, our 
Nation has a process put in place with the National Security 
Council, convening our national security agencies to be able to 
discuss and evaluate those considerations in how we respond to 
these types of emergencies.
    I worked at the National Security Council through a number 
of different crises and emergencies, and I saw how that 
collective process was important. It was something that 
strengthened our response, making sure that we are getting 
interagency buy-in and equities to consider these different 
efforts.
    So I wanted to ask, with the decision last October with the 
deployment of Active Duty in response to the crisis that you 
were talking about, what interagency process, what national 
security process at the NSC [National Security Council] was 
conducted? Was there NSC meetings? Were there principal 
meetings, deputy meetings that were pushing for that decision, 
reviewing the DHS process and informing the DOD's response to 
this?
    Secretary Rood. Congressman, there were a series of 
meetings that were convened by the White House to review and 
coordinate the roles of different departments and agencies that 
included the National Security Council, as you mentioned.
    At times, those are done pursuant to the National Security 
Council's activities. At other times, more on the domestic 
policy council side of the ledger. And so there were quite a 
few of those meetings and they continue to be an ongoing 
process.
    You are exactly right that it is critical to coordinate 
those various activities, because in this particular case, the 
Defense Department is not the lead agency, we are providing 
support and augmentation to the Department of Homeland 
Security.
    Mr. Kim. So prior to DOD's decision to move forward to 
fulfill the request by DHS, there was a Principals Committee, a 
National Security Council meeting convened that moved forward 
with those conclusions that informed DOD's response?
    Secretary Rood. There were meetings typically chaired by 
other members in the White House staff to convene that included 
members of the National Security Council staff in them. With 
reviewing the exact deployment of Active Duty forces, obviously 
that was a Defense Department decision about how to source the 
request for assistance from the Department of Homeland 
Security.
    Mr. Kim. Who were the White House officials that would 
chair in the meetings that were reviewing this particular 
request during that time period?
    Secretary Rood. We would have to get you the specifics, but 
certainly there were any number of those meetings that were 
held, including with the White House Deputy Chief of Staff 
convening some of those, as well as others such as, as I 
mentioned, with the participation of the Homeland Security 
Advisor and the National Security Council staff.
    Mr. Kim. Great. Well I appreciate that. It is incredibly 
important that we follow up, so I would like to hear some 
greater detail on what meetings were happening and to whatever 
extent you can share that, because these processes that are put 
in place are there for our Nation's protection.
    This process put through the National Security Act put in 
place something to make sure we have that constant deliberation 
and we have a certain amount of set standards by which we 
approach every emergency and crisis, whether domestic or 
foreign.
    And these are the types of staffs that understand why it is 
we have a Situation Room in the White House that allows us to 
gather and check politics at the door and make sure that we 
focus in on approaching these with the best security in mind 
for the American people.
    So that is why I asked those questions. Thank you, I yield 
back my time.
    The Chairman. Thank you. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. I know the Chair 
mentioned that the 2018 DHS budget was funded and to be honest 
with you, I remember very little discussion about the budget.
    I think it was just accepted and it was done, and I would 
just point out to the other members that in the fiscal year 
2018 budget, there was $1.375 billion for border wall 
construction, $251 million in San Diego, $445 million for the 
Rio Grande Valley, $196 again for the Rio Grande Valley, $445 
for San Diego, El Centro, Yuma and Tucson, 84 miles in all.
    The President has now requested funding for an additional 
215 miles, a significant portion of which is the completion of 
the border wall in those very areas where it was started under 
the 2018 appropriations, where there was little if any 
discussion, certainly no discussion about it being immoral to 
do such a thing.
    I want to follow up on what my colleague Ms. Hartzler said 
and the Congresslady from Virginia, Ms. Luria. I believe the 
point she was getting at--and I want to encourage my 
colleagues, I don't pretend to tell anybody on this committee 
what to do, but I would suggest a CODEL [congressional 
delegation] down to SOUTHCOM to discuss JIATF South and the 
things that go on down there and what can be done to stop the 
flow of drugs in the United States is well worthwhile and would 
be worth the committee actually having a hearing on.
    But if I may, reading from a report from Latin America, 
from--forgive me, I don't have the name of who did this. As of 
2016, 43 of the 50 most homicidal cities in the planet were 
located in Latin America. Is that consistent with your beliefs, 
gentlemen?
    Secretary Rood. Sir, I confess I am not familiar with the 
particular statistic you are citing, but obviously there are a 
number of cities in Latin America that do experience a high 
rate of homicide.
    Mr. Scott. At least 17 of the top 20 countries in the world 
with regard to homicide rates are located in Central America. I 
think one thing that most of us would agree on--and that is 
from a report from the Igarape Institute.
    I think one of the things most of us in this committee 
would agree on is that the vast majority of that violence is 
the end result of the trafficking of drugs and the money that 
comes from drugs through the cartels in those regions and 
countries of the world. Do you believe that is a fair 
statement?
    Secretary Rood. Yes, sir.
    Mr. Scott. Admiral, with regard to SOUTHCOM and JIATF 
South, if you talk to any of the leadership down there, they 
will tell you that on a regular basis, that they know where the 
drugs are--we knew exactly where they were at some point in the 
event, but didn't have the assets to go after them.
    Is that a fair statement from what you hear from your 
colleagues, Admiral Tidd, or----
    Admiral Gilday. Yes, sir. SOUTHCOM is never satisfied with 
the amount of resources they have for the enormous 
responsibility they have with respect to counter-narcotics.
    Mr. Scott. So since September the 11th, my understanding 
and certainly numbers vary a little bit, but somewhere around 
10,000 Americans have lost their lives, civilian and military, 
in what we call the global war on terror.
    Is that pretty close to an accurate number?
    Secretary Rood. I----
    Mr. Scott. 3,000 on September 11th.
    Secretary Rood. I think that is about right, sir.
    Mr. Scott. We lose 5,000 Americans every month to drug 
overdoses, more so today than just a few years ago. It is 
growing, quite honestly, exponentially. It is baffling to me 
that we give SOUTHCOM the leftovers when these acts of 
terrorism in our backyard are coming from the western 
hemisphere, they are in the western hemisphere.
    And we spend virtually nothing on SOUTHCOM. JIATF South, 
$435.5 million, less than 1.5 percent of the U.S. counter-
narcotics budget that resulted in greater than 76 percent of 
the interdictions of drugs coming into the United States.
    Mr. Chairman, my time is about to expire but I do hope that 
the committee will pursue the funding of SOUTHCOM and JIATF 
South and the role that they play in the war on the drugs 
coming into this country and what our help through that means 
can do with regard to bringing stability in Central and South 
America.
    The Chairman. Thank you, Mr. Scott. I think it is a very 
important point, we are going to have the SOUTHCOM Commander 
testify at our normal hearing as we get ready for our budget. I 
think that is enormously important as we look at those needs.
    And I will point out we do spend a lot of money in this 
country on combating drugs coming into this country, 
prosecuting those that distribute them. I would suggest that 
there are a couple other areas if we are dealing with the drug 
problem. Number one, it is much more of a demand problem than 
it is a supply problem. We have spent a lot of money trying to 
cut it off, we have sent a lot of people to jail.
    We have to figure out how to get Americans to stop 
demanding so many drugs and a huge part of that is making 
treatment available. I know in my own State there are people 
who want treatment for various drug addictions who cannot get 
it because they either don't have--there aren't simply any 
beds, any people available to provide it or they don't have the 
healthcare dollars to pay for it. And if you ask any expert who 
has studied the drug problem which is more important to 
stopping it, supply or demand, every single one of them will 
say demand.
    As long as there is the unbelievable demand for drugs they 
will find some way to get in here, no matter how many people we 
arrest, no matter how many walls we build. We got to do it. I 
don't disagree with that. And we have. But let us understand 
the totality of the problem and also the finite resources that 
we have talked about earlier.
    Mr. Cisneros, you are recognized for 5 minutes.
    Mr. Cisneros. Thank you, Mr. Chairman. Thank you Mr. 
Secretary, thank you, Admiral, for being here today. I will 
keep my questions short and brief, but we know DHS requested 
DOD to improve 37 miles of the Barry Goldwater Range, 37 miles 
of barrier fencing there at an estimated cost of $450 million.
    We also know the Navy took $7.5 million of its operational 
and maintenance budget in order to start that. We also know, as 
previously was stated, that construction--the military backlog 
of construction--there is a backlog of military construction. 
So my question is what maintenance had to be deferred or 
delayed or canceled because of that transfer of maintenance 
money to this barrier wall?
    And going forward, what construction is going to have to be 
canceled or future maintenance is going to have to be delayed 
or canceled because of the money going to improve this 37 miles 
of barrier wall?
    Secretary Rood. Congressman, as you point out, along the 
Barry Goldwater Range, which is an active bombing range, there 
was a request from the Department of Homeland Security to 
examine a larger barrier there.
    We have not performed military construction funds for that. 
The Navy, as you point out, used $7.5 million to conduct 
planning in the event that a decision is made to erect such a 
barrier, but that decision to use a construction funds has not 
yet occurred. Now, that came from the operations and 
maintenance accounts and those are broad accounts in which we 
draw from to support the operations of the Defense Department, 
sir.
    Mr. Cisneros. Yes, but being a former Navy supply officer, 
I know how hard commands fight for that money and they want 
that money. And I know how devastating it could be when that 
money's taken away. And I am sure a commanding officer could 
have used that money, that he is saying that now my readiness 
has been delayed because it's been taken away. But I mean do we 
have a list of any deferred or canceled maintenance that had to 
be stopped because this money has been transferred?
    Secretary Rood. Congressman, I will have to take that for 
the record and see if there are any specific lists that we 
could provide.
    [The information referred to was not available at the time 
of printing.]
    Mr. Cisneros. Okay. And secondly, I know we--again, we 
talked about the military construction and if the President 
enacts his powers in order to declare an emergency and where 
that money would come from.
    Now I know you can't answer a hypothetical question--or you 
don't want to answer a hypothetical question, but will you 
commit to providing a list to the committee in the event that 
authority by the President is triggered, including the specific 
impact on military readiness and the requirements of each 
project that is identified for cancellation or deferral if the 
President in fact does declare an emergency in order to build 
his wall?
    Secretary Rood. Congressman, again, the President has not 
made such a declaration at this point. And then, depending on 
which part of the law that he would authorize DOD to act 
pursuant to, then that would guide us down another path that we 
would have to meet the requirements of that law.
    So it may not involve military construction, depending on 
should the President invoke such authority and then what 
authority he should cite in that declaration. And so it would 
be premature, since we don't possess such a list at this point, 
to provide that to you.
    Mr. Cisneros. I understand but what I am asking simply in 
this situation is if that situation does occur, will you 
provide a list to this committee telling us what construction 
is being canceled?
    Secretary Rood. We would certainly operate in accordance 
with the law. I think here we are not yet at the stage where we 
would reach such a question, sir. And so we would obviously 
keep the committee informed about our activities. But 
consistent with the requirements in whichever applicable law 
was conducted--and depending on which authority the President 
cited, there are different requirements that apply, as you are 
aware, I am sure.
    Mr. Cisneros. I defer my time back.
    The Chairman. Thank you. Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman. 9/11, as we all know, 
resulted in the deaths of roughly 3,000 Americans in New York, 
Pennsylvania, and Virginia and the Washington, DC, area. And 
the net effect of the loss of those 3,000 lives was to invade 
Iraq and Afghanistan at cost of trillions of dollars and many 
thousands of lost lives by military personnel and civilian 
support personnel.
    In contrast, illegal aliens cause roughly 2,000 homicides 
on American soil per year. At least over 2,000 illegal aliens 
were apprehended by Federal law enforcement officers in fiscal 
year 2018, for homicides. And as was mentioned earlier by 
Congresswoman Hartzler and Congressman Scott, drug overdoses 
cost roughly 70,000 American lives per year and the evidence is 
overwhelming that a substantial portion of the drugs, those 
poisons that caused the loss of American lives, come across our 
southern border illegally.
    In terms of lost American lives, then, our poor southern 
border combined with the homicides of illegal aliens far 
exceeds the loss of life caused by 9/11. With that as a 
backdrop, I want to direct your attention to 10 United States 
Code 284, which authorizes President Trump to deploy the 
military to the southern border to build fences and to do a lot 
of other things. And for clarity, if you look it up in the 
dictionary, the word fence includes the word barrier and the 
word barrier includes walls made of a variety of different 
materials.
    So that having been said, it seems to me that 10 U.S. Code 
284 can be used by the President of the United States to direct 
the United States military to build a wall. Now as of today--
you have mentioned military forces along the southern border. 
Have any of them been deployed pursuant to 10 U.S.C. 284?
    Secretary Rood. Congressman, I don't believe any of our 
forces have been deployed pursuant to 10 U.S.C. 284. You are 
correct, however, that that use of authority would authorize 
the Secretary of Defense to erect barriers, roads, fencing, 
those type of materials to disrupt drug smuggling.
    Mr. Brooks. Does 10 U.S.--excuse me, 10 U.S.C. 284, as you 
understand it, require the declaration of a national emergency 
before it is implemented?
    Secretary Rood. No.
    Mr. Brooks. It does not?
    Secretary Rood. No.
    Mr. Brooks. Has President Trump, to your knowledge, ever 
used 10 U.S.C. 284 to direct the military to build the wall 
that is necessary for border security?
    Secretary Rood. No, not to my knowledge, Congressman.
    Mr. Brooks. If President Trump were to direct the Pentagon, 
United States military pursuant to 10 U.S.C. 284, to build such 
barriers as are necessary to secure our southern border from 
drug trafficking and international crime cartels, would the 
United States military obey that order?
    Secretary Rood. If we judge it to be a lawful order, yes, 
sir. And I assume it would be.
    Mr. Brooks. Thank you, I appreciate your responses and, Mr. 
Chairman, I yield back the remainder of my time.
    The Chairman. Thank you. Ms. Houlahan.
    Ms. Houlahan. Gentlemen, thank you so much for your time. 
Mr. Rood and Admiral Gilday, I am a new Member of Congress and 
newly put on the Readiness Subcommittee, and so most of my 
questions will have to do with the readiness aspect of this.
    And I understand for years that the Department has been 
briefing Congress on the concerns of readiness on our Armed 
Forces, and so to that end I would love it if you could--if you 
are able to talk us through a couple of the major units that 
are deployed at the border, what their mission is. And if you 
could tell us what they would be doing if they weren't on the 
border right now, normally?
    Admiral Gilday. That is a good question. So we have 
engineering battalions who, right now, are--and that is 
actually a joint project with both Army engineers and Air Force 
welders, we are actually welding concertina wire above the wall 
in sections of Arizona and California.
    Those particular units would not probably be doing that if 
they weren't deployed to the southern border. I am not sure 
where they were in the readiness cycle when they were deployed, 
but I can look up that information and try to give you a sense.
    With respect to readiness, I will honestly say that some 
units either have or will miss company level training 
opportunities based on the deployment. But because we are 
limiting the deployments to fairly short periods of time, we 
believe that in every one of those cases we can recover from 
that.
    Ms. Houlahan. So if it would be all right to ask for the 
record if we could have a list of all of the units that are 
deployed and also their DRRS [Defense Readiness Reporting 
System] reports from before and after the deployment so that we 
could understand from a quantitative perspective how the 
readiness has been effected if it has been positively or 
negatively.
    [The information referred to can be found in the Appendix 
on page 74.]
    My second question is for either of you all. And I 
understand in reading your preparation material that in some 
cases small portions and in some cases individuals are being 
deployed from their units separate from their units.
    And we know the units have a finite period at home to train 
for their next deployment. Are we hurting their home unit 
training or readiness, are we impeding or impairing 
individuals' career abilities by deploying in this way?
    Admiral Gilday. I don't think it is a significant impact. 
Based on the short duration in time that we are deploying them, 
we have tried to, whenever possible, deploy our personnel as 
units instead of deploying them individually, because that is 
how they were trained and certified.
    And so we are trying to maintain that construct so we get 
the most out of that deployment forward down to the border. 
There is a cost with respect to dwell time and we do deploy 
them, we have to recover that.
    And so there is no way around that, but again, we have 
tried to minimize the time away to minimize that recovery.
    Ms. Houlahan. So it is definitely clear in the preparation 
materials that I read that there were some individuals and very 
small groups of people that have been deployed. And so I would 
like to know if there's any way of capturing the impact of that 
that you could report back to us from a quantitative 
perspective.
    The next question that I have is for Mr. Rood, which has to 
do with title 10 and section 276, which states that the 
Secretary of Defense should prescribe regulations to ensure 
that the provision of any support to law enforcement does not 
adversely affect the military preparedness of the United 
States.
    Are you aware of any directives or policy statements put 
forth by the Department to ensure that any readiness impacts of 
this border deployment has been mitigated?
    Secretary Rood. The deployments that are done to the border 
area of course are all consistent with our domestic authorities 
and DOD personnel deployed there are not engaged in law 
enforcement activities.
    The Secretary does gauge their impact on readiness, and as 
mentioned, we track that through a regular reporting system. 
And depending on the units, in some cases readiness has 
increased, in other cases it's declined. And that varies over 
the course of a deployment.
    Ms. Houlahan. So I am not certain if I heard a yes or no 
answer to the question. I guess I was asking if there were any 
directives or policy statements put forth by the Department, 
and I didn't know if I actually heard a yes or no on that.
    Secretary Rood. Could I ask you to clarify, you are asking 
for a directive that changes the present policy on usage----
    Ms. Houlahan. I am looking for how the directives are being 
implemented specifically.
    Secretary Rood. Perhaps I could take that for the record. I 
am not aware of any change from our past practice with respect 
to----
    Ms. Houlahan. So it sounds like that is no I guess is the 
answer.
    Secretary Rood. I will confess, I am not sure I properly 
understand your question, and I am sure it is my issue, 
Congresswoman.
    [Laughter.]
    Ms. Houlahan. Not a problem, not a problem. I yield the 
rest of my time and thank you, sir.
    The Chairman. Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman. At this hearing 
today we have heard comments that have already established that 
the current U.S. military presence on the southern border is 
indeed similar in size and scope to the DOD support to border 
protection and security over the previous two administrations.
    And I understand the DOD pays the bill to support DHS 
through use of operation and maintenance and personnel funds, 
usually to the tune of about $100 million per year. My 
question, and this will build upon some of the previous 
questions, is what if any readiness functions go unfunded or 
unexecuted because of the additional cost to support missions 
like Operation Guardian Support and Operation Faithful Patriot?
    I know in the previous response you touched upon the cost 
because of dwell time. Can you go further in depth on the dwell 
time issue, but any other readiness impacts?
    Admiral Gilday. So in terms of monetary costs, in terms of 
what we had to reprogram in order to, you know, conduct an out-
of-cycle deployment, I will have to get back to you on what the 
trades were in order to make that happen.
    So we didn't do something, we are not going to do something 
based on that deployment, but I will have to go back and take a 
look at that in order to give you a more concise answer.
    [The information referred to was not available at the time 
of printing.]
    Ms. Stefanik. Okay, I think that is really important that 
we get that information. Building upon that, and this was also 
touched upon previously, but I would like more specifics, can 
you describe what the training value is to Active Duty Army and 
Marine Corps units deployed to the southern border, and are we 
ensuring that the right types of units perform the right types 
of duties to enhance their training and readiness.
    Admiral Gilday. I think that we have done an excellent job 
at matching specific skill sets and units that have been 
trained in those mission areas that we are matching them to 
along the border.
    Ms. Stefanik. And can you give me an example of that?
    Admiral Gilday. I think a really good example are military 
police. And so we are using them in a mission to protect CBP 
should those ports of entry get overrun. They are the absolute 
perfect unit to perform that function.
    I mentioned earlier, they have received great training 
value from the training vignettes that they have done with CBP 
in preparation for that mission.
    Ms. Stefanik. And my last question is, since the October 
2018 request, how specifically have border points been hardened 
during the initial deployment of Active Duty personnel? And 
what specifically does that hardening involve? And which 
specific points were indeed hardened?
    Secretary Rood. Congresswoman, there were 22 points of 
entry along the four southern States that were in the nine 
sectors that CBP breaks that mission into. And at those 
barriers--at those areas around the points of entry, 70 miles 
of concertina wire was emplaced atop existing barrier. In other 
cases, depending on the location, to control vehicle traffic, 
there was a request for Jersey barriers or other vehicle-
shaping barriers.
    And then in other cases, to harden the specific location, 
construction was performed to create barriers and place 
shipping containers, things of that nature. It varied depending 
on which point of entry and how that the hardening was done.
    Ms. Stefanik. Thank you very much.
    I yield back.
    The Chairman. Thank you.
    Mr. Crow.
    Mr. Crow. Thank you, Secretary Rood, Admiral Gilday. We 
appreciate you being here today.
    I have been struggling to try to piece together a 
chronology of the decision to send the Active Duty troops to 
the border. As me and my colleagues have pointed out, there is 
a long history of National Guard and Reserve cooperation, 
support. But what distinguishes this is the use of Active Duty 
and the number of Active Duty troops.
    And I am also very concerned always with operational need 
driving the use of Active Duty forces as opposed to politics. 
So could you help me answer a simple question, who originated 
the idea to send Active Duty soldiers to the border? Did that 
idea come out of the White House or did it come out of the 
Department of Homeland Security?
    Secretary Rood. Neither, sir. When the request is received 
for assistance by the Department of--the Department of Homeland 
Security is the mission-holder and they provide a request for 
assistance where they are unable to meet their needs to the 
Department of Defense.
    The Department of Defense then looks at those needs, 
whatever the request is, and tries to identify from the total 
force the best way to source the mission need. And that is 
where the decision ended up being made in that particular case, 
as Admiral Gilday testified, to use Active Duty troops last 
fall in addition to the National Guardsmen that were already 
deployed.
    Mr. Crow. So there was a determination that there were no 
sufficient National Guard and Reserve forces available to meet 
that request?
    Admiral Gilday. So it was primarily driven by timing. I 
described at the time the direction came from the White House 
and those migrants were massing down in southern Mexico, the 
direction was to move forces fairly expeditiously to the 
border. And so based on the fact that with----
    Mr. Crow. You said that directive came from the White 
House.
    Admiral Gilday. That directive ultimately came from the 
White House, yes, as I recall. So that direction for us to 
deploy, not necessarily to use Active Duty forces. That was a 
decision made inside the Department.
    Mr. Crow. Okay. The second question relates to just the 
living conditions for our troops on the border. There were 
reports late last year of our soldiers in tents, without 
running water. Can you please explain for me what the living 
conditions for those soldiers look like right now?
    Admiral Gilday. My understanding of the living conditions 
are pretty good for deployed units that are living in tents. I 
haven't heard any reports, sir, of a lack of running water or 
of any facilities that they require.
    Mr. Crow. How many soldiers are living in tents right now?
    Admiral Gilday. Sir, I would have to get back to you with 
an exact count. Based on the mission and the location, we 
probably have some people in hotels, particularly as we move to 
this, as we transition to the missions between the POEs [points 
of entry] out in the middle of the desert in some cases.
    So I will have to get back to you with specifics.
    [The information referred to was not available at the time 
of printing.]
    Mr. Crow. Admiral, you said earlier that barriers are 
ineffective unless you are also surveilling them. One of the 
requests from DHS is to build an additional 150 miles of 
concertina wire by March of this year. Is it your understanding 
that that 150 miles will also be surveilled mileage?
    Admiral Gilday. It is not. I don't know what CBP's plan is 
along that section of concertina-wired wall that we are helping 
out with. I don't know what their long-term plan is.
    Mr. Crow. So by your definition that a barrier has to be 
surveilled to be effective, then would some of that mileage 
potentially be ineffective?
    Admiral Gilday. I am unsure if I--I am unsure if there is--
--
    Secretary Rood. Sir, we received the request for assistance 
again from the Customs and Border Patrol but it is our 
understanding they do have a surveillance plan along these 
barriers. In some cases it is to go in addition to existing 
infrastructure that is there, sir.
    Mr. Crow. I understand that, but I would like some 
clarification on whether or not the resources that are being 
used by the Department of Defense are effectively being used. 
And if there is not coordination between DHS and DOD to make 
sure that is happening, we definitely need make sure that it 
is.
    Secretary Rood. There is close coordination and part of the 
recent request for assistance from the Department of Homeland 
Security is about mobile surveillance assets to provide 
additional capability to detect and monitor movements and 
activities at the border.
    Mr. Crow. Thank you.
    I yield back.
    The Chairman. Thank you. We are going to try to wrap this 
up at 12:30 just because I don't want to abuse the Pentagon 
witnesses the first time they send them over to me so that they 
don't send any more. It may slip a little bit past that, but if 
we could move as quickly as possible through the rest that 
would be great.
    Mr. Gaetz.
    Mr. Gaetz. Thank you, Mr. Chairman. And note taken.
    Admiral Gilday, as you are aware, one of the cost drivers 
for military construction is the changing classification of the 
mission, where the mission itself is not changing, but perhaps 
it goes from TS [Top Secret] to TS/SCI [Sensitive Compartmented 
Information] or to some different security classification.
    In a world--and I know this hasn't happened yet, but in a 
world in which MILCON dollars were used for a barrier at the 
southern border, would we expect those missions perhaps to be 
reevaluated in terms of their classification or would we expect 
those construction projects to sort of goose to the top of the 
list in a reprioritization?
    Admiral Gilday. I am not sure I understand your question 
specifically, sir, with respect to the security 
classifications.
    Mr. Gaetz. Right. So in a world in which one of the cost 
drivers to MILCON is the fact that some facilities have to go 
from TS to SCI or----
    Admiral Gilday. Now I understand----
    Mr. Gaetz. To TS, like, walk us through what happens to 
those types of projects in a world in which resources were not 
available for that type of construction.
    Admiral Gilday. Sir, I would be speculating. I have not 
been involved with any of the, you know, initial work that has 
gone on to take a look at what those metrics might be. But I 
will get back to you with a better answer.
    [The information referred to was not available at the time 
of printing.]
    Mr. Gaetz. Yes, my request would be like in a world in 
which that were to happen that we look at those specific types 
of MILCON projects and really determine the impact on them.
    And Mr. Chairman, heeding your advice, I would like to 
yield my remaining to my colleague from Florida, Mr. Waltz.
    The Chairman. Thank you very much. Enormously helpful, I 
appreciate it. Well, actually, go ahead.
    Mr. Waltz. Thank you, Mr. Chairman.
    As a Pentagon alum, been on the other side of there--thank 
you for coming. So broadly speaking, I think we all agree that 
the Pentagon has been providing the support for many decades. 
Is there an effort to get to the point where the Pentagon's not 
providing the support?
    So, if we looked at the DHS appropriation and looked at 
what you are being requested, is that roughly--does that 
roughly match or is there some reason that the National Guard 
Bureau in particular wants to, or needs to, or provides 
training and readiness value of continuing to provide this 
support, or have we all just become very comfortable with this 
kind of steady state?
    Secretary Rood. Sir, I would say the Department of Homeland 
Security Customs and Border Patrol, they obviously deploy a 
larger number of agents, a larger number of resources to the 
border. DOD's role is to augment them. Now, as situations 
arise--and they have varied over the years--but there has been 
a steady stream for decades, where the Defense Department has 
provided that support. Sometimes the nature is adjusted over 
time, but it has been there.
    Mr. Waltz. Contingencies aside or spikes, but just a trend 
line.
    Secretary Rood. And it's really a resourcing issue outside 
the Defense Department.
    Mr. Waltz. Because DHS's resources have increased.
    Secretary Rood. Yes, sir.
    Mr. Waltz. Right. And the chairman noted that apprehensions 
have decreased, are you seeing--bottom line, are you seeing an 
increase or decrease in requests over time, over, say, the last 
several years, aside from the recent caravan, coming from DHS?
    Secretary Rood. In the last year we have seen an uptick, if 
you will, in the requests due to the increased activities and 
the flow. And again, I mean, the volume is instructive. Last 
year over 500,000 apprehensions by our law enforcement 
authorities; a larger number of people entered the country and 
were not apprehended. Last 2 years alone, a larger number than 
the population of Washington, DC, have been apprehended, or a 
city the size of San Francisco----
    Mr. Waltz. Right.
    Secretary Rood. Apprehensions in 2 years.
    Mr. Waltz. On the Active Duty side, I would like to echo 
Ms. Stefanik, my colleague, and I would be very interested in 
what are the Active Duty troops not doing? I mean, what was the 
opportunity cost? Were they--did they miss training rotations? 
Are they in the lineup for deployment, the effect on dwell 
time? Just understanding better that cost.
    And then finally, I would like to echo Mr. Scott and the 
importance of JIATF South. Secretary of Navy Spencer has 
indicated that ships are critical to the deterrent of drugs 
coming across our waterways.
    Admiral Tidd indicated we are only stemming about a quarter 
of what we are detecting, one-fourth. Is there any 
consideration, reconsideration for the Navy providing more 
assets to SOUTHCOM, particularly LCS [littoral combat ship], 
which would be uniquely suited for that mission?
    Admiral Gilday. Sir, it is not a Navy call. And so, I go 
back to the National Defense Strategy and as unpopular as it 
is, it is a ruthless prioritization. And I don't think that 
anybody in uniform disagrees at the severity of the drug 
problem, but the----
    The Chairman. The gentleman's time has expired.
    Mr. Waltz. Okay, fair enough.
    The Chairman. Good there.
    Ms. Slotkin.
    Ms. Slotkin. Hey, gentlemen, thank you for doing this. I 
have been in your seat and I know it's getting on in time here. 
So thank you for sticking with us.
    As someone who was at the Pentagon, who was married to a 
30-year Army veteran and who has a stepdaughter on Active Duty 
right now, I am extremely concerned that we preserve the 
perception and reality that the U.S. military is apolitical.
    So, the three concerns I have or the three questions I have 
are, one, about the timing of the decision to deploy, which is 
hard to feel wasn't political given how close it was to the 
midterms.
    Number two, the choice to put Active Duty folks down there 
instead of Guard, which I absolutely agree has been done for a 
long time by many administrations.
    And then, three, the missions that those Active Duty folks 
are pursuing and any bleed over into law enforcement 
activities, which, of course, goes back to the very founding of 
our state.
    So, on the choice to deploy, on the timing, in answer to 
Mr. Crow's question, you said it was a directive from the White 
House, is that correct? In the form of a memo?
    Admiral Gilday. As best as I can recall. Not specific that 
Active Duty be deployed, but that the U.S. military respond.
    Secretary Rood. And accompanying that is, of course, a 
formal request for assistance from the Department of Homeland 
Security.
    Ms. Slotkin. Of course. Was there anyone, civilian or 
military at the three-star rank or above, who disagreed or 
pushed back on the request and the timing of the request? To 
your knowledge--just obviously that you would be aware of?
    Admiral Gilday. There were certainly discussions about, you 
know, making best military advice on how we should respond.
    Ms. Slotkin. Was there any formal dissent, any 
transmissions back to the White House with the dissent of any 
one civilian or military above--three-star or above that you 
were tracking?
    Admiral Gilday. Not that I know of, no.
    Ms. Slotkin. Okay. On the choice of Active Duty, so I heard 
your reply, I think to Representative Luria, that there--it was 
really available forces at that time and having to get to the 
border very quickly.
    Is there any other factors that went into the decision to 
use Active Duty over Guard besides speed, for the record? 
Intelligence reporting, obviously we are in an unclassified 
setting, any other factors on record that led to the decision 
to use Active Duty?
    Admiral Gilday. I think other factors were capacity, the 
right skill sets, readiness impacts were considered, and timing 
was key.
    Ms. Slotkin. Was there ever a consideration of--we have now 
seen stories come out of some, I think, misstated talking 
points about the terrorist threat emanating out of the 
caravans, out of the number of terrorists that were coming 
across the border in that area, was there a threat assessment 
in any way that led to the choice to use Active Duty over 
Guard?
    Admiral Gilday. No, there was no connection.
    Ms. Slotkin. Okay. And then the missions, obviously, we all 
know that the U.S. military cannot perform law enforcement 
activities inside the United States. I am sure we all believe 
that that is important.
    I understand that there was a memo that was sent over by 
then Chief of Staff Kelly, indicating that in agreement with 
the law as it stands, no law enforcement activities were to 
take place unless otherwise directed by the President of the 
United States.
    Has the President of the United States directed the 
Department of Defense in any way to use those forces in law 
enforcement roles?
    Admiral Gilday. No.
    Secretary Rood. No.
    Ms. Slotkin. Okay. Thanks, gentlemen.
    I yield the rest of my time.
    The Chairman. Thank you.
    Mr. Bacon.
    Mr. Bacon. Thank you, chairman. And want to thank both of 
you for coming in, I thank for you leadership and your service 
in securing our country.
    We have serious vulnerabilities in our southern border and 
American citizens are suffering a devastating impact. We have 
talked about drugs today, human trafficking, some of the 
criminals that get through that victimize innocent Americans, 
Sunni extremism, we could go on and on--and I think Ms. 
Hartzler raised--just a huge impact, 72,000 Americans this year 
will suffer or die of an overdose. And much of those drugs are 
coming over from our southern border.
    So I just want to make the statement that Republicans and 
Democrats must sit together, negotiate and solve this problem 
in good faith. Americans demand it and we can do better.
    Under Secretary Rood, I just want to clarify a couple of 
your key points for our constituents back in the Nebraska 
Second District. And I want to just clarify some key points, 
just make sure I have it right. Is the current deployment 
consistent with past precedent of Republican and Democratic 
administrations?
    Secretary Rood. Yes.
    Mr. Bacon. Is the current deployment consistent with law?
    Secretary Rood. Absolutely.
    Mr. Bacon. And is the current deployment support of an 
inherent Federal function?
    Secretary Rood. Yes.
    Mr. Bacon. Thank you. I think those are key points that we 
need to stress. Admiral Gilday, about a year ago, Admiral Tidd 
said that some of the pathways and vulnerabilities used by 
criminal organizations in South and Central America are being 
exploited by terrorists.
    The Guatemala Ambassador personally told me that he has 
detained dozens of Sunni extremists within their country, there 
were--that were trying to get to our country using--and they 
had false identifications. Rear Admiral Hendrickson said a year 
ago that individuals have been detained south of the border who 
have ties with terrorists and some with the intentions to 
conduct attacks against our homeland. Can you give us an update 
on what you know--what this threat of terrorism is via our 
southern border?
    Admiral Gilday. Yes, sir. I will say this, the threat is 
real. I would also say that we have a significant presence of 
special forces in South America as we speak. They are 
conducting training missions, and so as we talk about 
priorities within the Department of Defense and the fact that 
we are resource constrained, it is in our best interest to form 
those partnerships to help those countries take care of those 
problems whenever they can. And so that is an example of our 
focus in South America, getting after that particular threat 
stream.
    Mr. Bacon. If you have any other updates that you can 
share, obviously in an unclassified setting, on the terrorist 
activity that we are seeing through South America and Central 
America. Also the information I have is about 8 months old.
    Admiral Gilday. Yes sir, we can arrange a briefing for you 
to get an update on that.
    Mr. Bacon. Thank you, I yield back.
    The Chairman. Thank you. Ms. Sherrill.
    Ms. Sherrill. Thank you gentlemen for being here today, 
thank you for your preparation, you have taken quite a bit of 
time to come here, and thank you to your staff for all of the 
preparation as well. I was happy to hear from my colleague that 
the National Guards troops were excited and enjoyed being 
deployed on these extra missions.
    I have heard that from some of our National Guardsmen and 
women as well, that they enjoy the extra training. I can tell 
you that our Active Duty service men and women do not always 
enjoy the extra deployments especially as they come right 
before the holidays, over Thanksgiving and Christmas as this 
one did.
    I bring that up because I am really concerned about the 
OPTEMPO [operations tempo]. As you know better than I, 
Secretary Rood, over the last several years we have seen 
significant strain on our Armed Forces from the 5 accidents in 
the 7th Fleet, the tragic loss of 17 sailors aboard the USS 
Fitzgerald and the USS McCain, to our special forces leadership 
expressing concern at the high rate of deployment and how it is 
affecting recruitment, to Secretary Mattis himself highlighting 
the need to restore readiness to our National Guard by 
resetting their equipment, we have seen strains in our 
military. I know that is something, Admiral Gilday, that the 
military's been working very hard to get troops back home with 
their families at a better rate.
    You, I am sure, during your service saw the difference 
after 9/11 in troop deployments and what a hardship that could 
be on our military service member and families.
    Given that, Secretary Rood, it is my understanding that our 
troops at the border are providing the following capabilities: 
stringing concertina wire as we have heard, planning 
assistance, engineering and aviation support, medical teams, 
command and control facilities, mobile surveillance camera 
operations, and temporary housing and personal protective 
equipment for CBP personnel. Are any of these missions, 
missions that the DHS or contractors for the DHS could not 
provide?
    Secretary Rood. Well the starting point of course, 
Congresswoman, is the DHS making an assessment that their 
organic capabilities--they need augmentation, and therefore 
they are making a request to the Defense Department for support 
to civil authorities so that is the triggering event.
    Obviously the Department of Homeland Security, CBP and 
others possess things such as helicopters and medical personnel 
in addition to the Defense Department. But depending on the 
circumstances they have made a determination that their 
assets--and we work with them to try to develop an 
understanding of the mission need--that their assets were 
insufficient by themselves to meet that need, hence they have 
made a request for assistance.
    Ms. Sherrill. So they have made the determination that 
their assets are insufficient. Were they given sufficient 
assets, could they undertake those missions?
    Secretary Rood. In a general sense, yes. I mean, for 
example some of the helicopter support that DOD has provided, 
if the DHS--I assume if they had sufficient rotary-wing support 
they could have met that mission need themselves.
    Ms. Sherrill. The reason I am asking is because as you 
yourself said, the rotor-wing support, and as a former 
helicopter pilot I am certainly interested in all things rotary 
wing.
    The needs overseas are very great and now that we are 
providing this on the border, the balance between what DHS 
should be doing and what I think Active Duty military troops 
should be doing is something that I am very interested in.
    And so, what I am looking for is should the DHS really be 
advocating for better supplies and then we, as the House Armed 
Services Committee, can really help our troops to perform their 
missions, and their traditional missions, especially overseas 
with our wars in Syria, Iraq, Afghanistan, as well as now where 
our special forces are deployed across the world--including, as 
we hear, in South America.
    And so I guess that is something that I think we need to 
continue to look into. I will talk to you a bit, Admiral 
Gilday, as you know some of the Nation's greatest threats are 
the security vulnerabilities in our land, air, and sea ports. 
This is particularly something I care about, being from New 
Jersey because we have some of the largest ports of entry in 
the United States.
    And there are new and emerging threats and I am concerned 
that all this talk about border security when we don't include 
our other ports of entry, is really missing some of the 
emerging threats that we have seen.
    And I bring this up because just last Tuesday night, at 
Newark Airport, one of the 15 busiest airports in the country, 
it was shut down for an hour after reports of an unauthorized 
drone, when it entered their airspace. This delay cost our 
economy $65 million, and disrupted many people's lives. So 
given that, I wonder Admiral----
    The Chairman. I am sorry, your time has expired so whatever 
you want to know is going to have to be for the record.
    Ms. Sherrill. I will come back to that, thank you very much 
and thank you for your time today.
    The Chairman. Okay. And at the end of this hearing there 
will be an opportunity--everyone here will have an opportunity 
to submit questions and statements for the record.
    Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman. Secretary Rood, in a 
New York Times article dated November 10, 2018, anonymous 
Pentagon officials were quoted deriding the deployment as an 
expensive waste of time and resources and a morale killer to 
boot.
    Do you know who those anonymous sources at the Pentagon 
were that would call this is a waste of time?
    Secretary Rood. No, sir. Obviously, this is a mission that 
we take seriously at the Defense Department that we have 
executed before in various permutations. And we are executing 
in support of our colleagues at the Customs and Border 
Protection.
    Mr. Banks. Clearly, you would agree everything that we have 
heard over the past couple of hours would contradict those 
anonymous sources who called this deployment a waste of time. 
Would you agree simply?
    Secretary Rood. Yes, border security is an element in 
national security. And that is part of the Defense Department's 
mission.
    Mr. Banks. In a Time magazine article dated November 15, 
2018, former Secretary of Defense Chuck Hagel said quote, 
``It's a waste of time. It's clear to me that he is using the 
military as political pawns which is completely 
irresponsible.''
    Everything that we have heard over the past couple of hours 
would clearly contradict former Secretary Hagel's account of 
what is occurring at the border that our troops have 
contributed to, correct?
    Secretary Rood. Sir, I have not read former Secretary 
Hagel's comments. But I can say our mission is devoted to 
supporting the Customs and Border Patrol. There is a very 
legitimate long-standing mission that we have performed over 
the years at the Defense Department. And we are doing so again.
    Mr. Banks. Later in that article, it is quoted saying 
quote, ``Troops often find themselves with little to do. They 
fill their time throwing a football around, texting their 
girlfriends, exercising or waiting for the outdoor mess hall to 
open.''
    Secretary wouldn't you agree that quote and these 
descriptions are not just disrespectful but downright demeaning 
to our men and women in uniform?
    Secretary Rood. Our men and women in uniform are very 
devoted to the missions that they have been sent upon. And the 
type of behavior you are talking about, waiting for the mess 
hall to open or throwing a football, by the way, in my travels 
around the world, it's not unusual behavior----
    Mr. Banks. Do you find that in Afghanistan as well?
    Secretary Rood. For our troops.
    Mr. Banks. That is right. Admiral, I wonder if you can--in 
your opening statement, you talked some about those 
surveillance missions. I wonder if you can--we haven't talked a 
whole lot about that today. Can you describe or give us 
anecdotes of what is involved with that mission and how our 
troops have contributed to that?
    Admiral Gilday. Sir, we are just transitioning now from our 
missions at the ports of entry to this surveillance mission 
between the ports of entry. We have an ongoing pilot program 
right now with the Marine Corps with the special MAGTF [Marine 
Air-Ground Task Force]-7 out of Camp Pendleton is actually 
working with CBP.
    One of the things we are trying to do is get our arms 
around the exact requirement with respect to manpower. And so, 
the systems are a little bit different than the systems that we 
have in the Marine Corps or in the Navy or in the Army. And so, 
there will be a training period.
    But essentially, there are trucks and vans that have a 
surveillance camera suite. And the mission is to conduct 
surveillance, detection, and monitoring between the POEs so 
that we can then cue CBP to come in and detain the people.
    Fairly simple mission, but again you go back to the 
effectiveness of a barrier or any type of wall is ineffective 
without surveillance, so. So we owe you a report out on whether 
or not we--on the effectiveness of this operation. We have 
direction from the Secretary of Defense to conduct an 
assessment no less than 90 days.
    Sir, if I could just add. A moment ago, you talked about 
throwing around footballs. And we have tried really hard not to 
waste people's time down at the border. So, there have been 
occasions when we haven't gotten it right with respect to 
numbers.
    And maybe we had excess capacity. But we have brought those 
people back when we realized that we have made a mistake. And 
we are not trying just to have a photo op down there with 
people on the border.
    Mr. Banks. I appreciate that. After hearing your testimony 
and your answers over the past couple of hours, it is clear to 
me more than ever that our troops have played a valuable role 
at the border. And we appreciate your testimony today. With 
that, I yield back.
    The Chairman. Thank you. We have three people left who want 
to ask questions. It is after 12:30 so if we could--and two of 
them represent districts on the border, so I want to try to get 
to them. But the quicker we can do it, the more the witnesses 
will appreciate it, but Miss Escobar from Texas.
    Ms. Escobar. Thank you, Mr. Chairman. Gentlemen, thank you 
so much for being here. I am very grateful for your leadership 
and for your responses to the questions. I come from the U.S.-
Mexico border. I represent El Paso, Texas, which has been one 
of the safest communities in the United States for close to two 
decades.
    The vast majority of the individuals that we are seeing 
coming to the southern border are people seeking asylum. They 
are not individuals here who are setting out to do us harm. I 
want to recall that in 1997 and would like for you all to help 
me out with this, a young man, Esequiel Hernandez, was shot and 
killed by a U.S. Marine who was patrolling the border. Can you 
help me and remind me and remind Americans what are the rules 
of engagement when you are in communities like my own, like 
Redford, Texas, and West Texas?
    Admiral Gilday. So, they are not rules of engagement when 
we have forces deployed in domestic situations like this. They 
are actually standing rules for the use of force. And they are 
guidance that authorizes the use of non-deadly force in order 
to control an escalating situation.
    And the emphasis in our training is towards deescalation. 
So, how can you use a minimal amount of force to get the 
problem under control so that it doesn't become a larger 
problem.
    We always have the inherent right of self-defense to use 
deadly force. But we train to only use deadly force when all 
lesser means have failed or cannot be reasonably employed.
    So the emphasis is on nonlethal. I would tell you that the 
preponderance of the troops we have down at the border have not 
been in a position to have contact with migrants; the medical 
personnel, yes.
    But even the protection personnel that we put to protect 
CBP, they are the fourth or fifth echelon back in terms of a 
defense in depth kind of construct. I hope that answers your 
question, ma'am, with respect to the use of force.
    Ms. Escobar. Yes, thank you so much. Another follow-up 
question on a separate topic, last summer during the height of 
the family separation crisis, the Department of Homeland 
Security asked the Department of Defense to prepare to receive 
unaccompanied minors at some of the military installations.
    In my district, Fort Bliss was identified as one of those 
potential sites. Can you provide us with an update? Have any 
other sites been identified? What is the status of this? And 
would you commit to notifying this committee of any updates on 
this topic?
    Secretary Rood. Congresswoman, I would say as you correctly 
pointed out, last year the Department of Homeland--HHS, Health 
and Human Services had made requests of the Defense Department 
for supplementary housing for unaccompanied alien children. 
There was a separate request from the Department of Homeland 
Security for housing of families of migrants.
    In both cases, the Defense Department reviewed our 
available facilities, and they were both for facilities or land 
for temporary facilities to be erected. And we provided a 
favorable response to both the Department of HHS and DHS.
    Those departments chose not to take advantage of those 
availabilities, and they still haven't to this period of time. 
And so at present, we don't have something ongoing or a search 
for other locations that we would notify the committee of.
    Ms. Escobar. In the future, if that does come up again, are 
you committed to notifying this committee?
    Secretary Rood. We would certainly keep in contact with you 
on that, yes.
    Ms. Escobar. Okay. Thank you.
    I yield.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you all for staying and being here with us. 
Appreciate it.
    I wanted to go back, just very, very quickly. When do you 
think we might have some information regarding the opportunity 
costs in terms of our troops and their families? Any sense of 
how soon that can get out?
    Admiral Gilday. Ma'am, we will take a look at that as soon 
as we get back this afternoon, and get back to you. Again, I 
don't think it has been significant in terms of time. But we do 
owe you an answer on that.
    [The information referred to was not available at the time 
of printing.]
    Mrs. Davis. Okay. Thank you.
    I want to go to the national emergency that we are talking 
about. And I understand, Secretary Rood, a hypothetical, if you 
will. But at the same time, it is not so hypothetical if we are 
looking, perhaps, into 3 weeks from now. What does that look 
like from the viewpoint of the military?
    Secretary Rood. Well, as you know, Congresswoman, the 
President has the authority to declare a national emergency----
    Mrs. Davis. Of course.
    Secretary Rood [continuing]. Or the Congress. And so 
obviously, we would await such a determination by either the 
Congress or the President. And depending on what authority--in 
this case, the President, I think you were referring to--were 
to cite, it then triggers certain requirements depending on 
which statute is utilized.
    And so we have done some prudent planning to try to 
determine what our legal obligations would be, to make sure we 
understand the correct operation of those different 
authorities.
    But at this stage, it hasn't progressed to the point that I 
am aware of, that the President has issued----
    Mrs. Davis. But--what I am wondering about is that the 
number of illegal crossings. Clearly, they are down. I mean, 
they are down even from George W. Bush, I believe, even half, 
from a millions, somewhere in the neighborhood of about 400,000 
at this time.
    So it's not the number of crossings. We didn't declare a 
national emergency at that time. The President--Bush did not do 
that. What is it now?
    Secretary Rood. Well, the numbers of crossings have 
fluctuated over the years. Last year, the--and we rely on the 
Department of Homeland Security for this data. Their number of 
apprehensions, there's a larger number of people that come 
across than--than are apprehended, of course.
    Mrs. Davis. Of course.
    Secretary Rood. And they gave us a 521,000 in fiscal year 
2018, which is up from 415,000 the previous fiscal year. The 
difference is, really, the caravans and some of the nature of 
the asylum-seekers.
    Mrs. Davis. Is the nature of the asylum-seekers, though, is 
what they need something different? So if we had more judges 
and more processing capability, perhaps, that is really what is 
needed, not necessarily declaring a national emergency.
    So, you know, what I am wondering is, how I translate that 
for my constituents. My constituents all live on the border, as 
does my colleague, Ms. Escobar. So how do we see that? And I 
think that they count on our military, I think, to define, also 
clearly, why is this a national emergency? What do they have to 
do? How do they protect their children? How do they protect 
their families?
    I mean, I don't know that anybody has--we have a national 
emergency for natural disasters that I don't think in the State 
of California, or in the country, we have declared that. Other 
Presidents have not stepped in to do that even though the 
situations were different for them.
    So I think we owe it to people to try and explain that a 
little bit better than--and I think that is done. And the other 
thing very quickly, and thank you again for your indulgence, 
the concern of border agents, just this weekend I happened to 
be talking to one of our Border Patrol agents who was sharing 
with me what we know is that they need more agents.
    And we have put more money into that. We actually had--we 
had one contractor who did a miserable job at it, but we were 
doing better. But we also had a tremendous number of people who 
have left this service. How are we going to keep up? And what 
role do these discussions have?
    I know that my constituent really felt that we made it very 
difficult for people who want to be a border agent today. Not 
your problem but I just think it's one that we need to 
recognize. If we are putting more money in, that is great, but 
we are not hiring the people because we are losing as many 
people as we are hiring. And so the attrition rate is really 
what is causing this problem.
    Thank you very much for being here. I appreciate your----
    The Chairman. Thank you.
    Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman.
    And thank you both for indulging us. I am going to be as 
brief as possible. Let me first say that I wish my colleague on 
the other side of the aisle was still here. He referenced a 
service member as being disrespectful for commenting that it 
was a waste of time. I would suggest that that is the actions 
of a whistleblower, not someone who is being disrespectful.
    I spent Christmas Eve at the border serving our troops. In 
addition to doing that, I had three 1-hour meetings with 
different groups at the border. And the colonel there said to 
me at the end of my time there, our mission is complete here. 
That was on December 24th.
    The service members told me about placing C-wire 
[concertina wire] at the border, but they also said to me, 
people who are climbing over those fences and walls aren't 
running away, they are sitting on the wire or at the wire 
waiting for a CBP officer to come so they can be apprehended as 
asylum-seekers.
    So I am concerned that the readiness that we should be 
working on with our service members is not being done. Many of 
these service members now have lost time with their families at 
Thanksgiving, at Christmas, at New Year's, are still there. 
They don't have an end of the mission date that they can rely 
on.
    I don't think this is the way to treat our service members. 
So with all of that, I am going to ask you to just comment on 
that. If the mission is complete, why are they still there?
    Admiral Gilday. So ma'am, at its peak, we had 5,900 troops, 
Active Duty, deployed to the border. This was in early 
November. That number was cut down to about 2,400 by Christmas. 
And so what we have tried to do is systematically reduce those 
numbers as, for example, if DHS said that they needed 50--70 
miles of concertina wire laid, and we lay that wire, we then 
redeploy those people home.
    Initially we deployed our troops to Texas, Arizona, and 
California. When the migrant groups did not go to Texas or 
Arizona, and they went towards San Diego, towards your home 
district, we reduced those numbers in those two States 
significantly, almost down to zero. And so we have tried to 
match the troops to the requirement on an evolving basis as 
best we can.
    I am sorry to hear about the colonel's comment, and am I am 
just guessing it was perhaps the military police group that was 
in San Diego. What he may have been talking about, ma'am, was 
the fact that that mission perhaps they saw it as complete when 
the surge of migrants, you know, dissipated. And that is a fair 
comment to make.
    We have tried to be responsive in reducing those numbers as 
quickly as we can.
    Ms. Speier. I yield back.
    The Chairman. Thank you.
    Before we leave, I ask unanimous consent to include into 
the record all member statements and extraneous material; 
without objection, so ordered. I want to very much thank our 
witnesses for staying with us for the entire time, and the 
committee for their questions.
    Mr. Thornberry, anything? We are good. We are adjourned. 
Thank you.
    [Whereupon, at 12:44 p.m., the committee was adjourned.]



      
=======================================================================



                            A P P E N D I X

                            January 29, 2019

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 29, 2019

=======================================================================

      

      
    [[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            January 29, 2019

=======================================================================

      

      

                    QUESTIONS SUBMITTED BY MR. SMITH

    Mr. Smith. Please provide a list of all support provided by the 
Department of Defense (to include Military Departments, Defense 
Agencies, and Field Activities) to other Federal Agencies for missions 
on, or related to, the southern border from April 1, 2018 to January 
30, 2019. Support includes any provision of personnel, materiel, or 
administrative services provided on a reimbursable or non-reimbursable 
basis, including, but not limited to, acquisition, contracting, 
financial (appropriated, working capital, and non-appropriated funds), 
materiel, equipment, goods, services, military personnel, civilian 
personnel, and other support. This list must include the granting DOD 
entity, the receiving Agency or Agencies, as well as type, time period, 
cost of support, and whether DOD has or will be reimbursed.
    Secretary Rood. Department of Defense (DOD) support to the 
Department of Homeland Security (DHS) at the southern border is being 
executed pursuant to the President's direction, including in his April 
4, 2018, Presidential memorandum, ``Securing the Southern Border of the 
United States.''

DOD assistance to Customs and Border Protection (CBP) Operation 
Guardian Support
    On April 5, 2018, CBP requested DOD assistance in support of the 
CBP border security mission in four specific border sectors: Rio Grande 
Valley, Laredo, and Del Rio, Texas; and the Tucson sector in Arizona. 
On April 6, 2018, the Secretary of Defense authorized and approved up 
to 4,000 National Guard personnel in a duty status pursuant to section 
502(f) of title 32, U.S. Code (i.e., support of operations or missions 
undertaken by the member's unit at the request of the President or 
Secretary of Defense), to conduct operations in support of validated 
DHS border security missions through September 30, 2018. Duty under 
Section 502 requires the concurrence of the Governors concerned. 
National Guard personnel were to support mission requirements 
identified by appropriate DHS and DOD officials. In accordance with 
this direction, the Secretary of Defense approved CBP requests for the 
following National Guard support:
    <bullet>  Aviation support (e.g., medium- and heavy-lift support; 
9,084 flight hours for light aviation support; and 1,422 flight hours 
for unmanned aircraft system (UAS) support);
    <bullet>  Infrastructure support (e.g., infrastructure maintenance, 
road maintenance, infrastructure deployment, vegetation clearing, and 
facility maintenance);
    <bullet>  Fleet maintenance and repair and movement of vehicles;
    <bullet>  Communications support;
    <bullet>  90 intelligence analysts;
    <bullet>  20 planners; and
    <bullet>  Surveillance support (e.g., surveillance camera 
operators, aerostat surveillance systems with crew, mobile surveillance 
platform operators)
    On April 11, 2018, DHS requested 12,000 flight hours of light 
helicopter support and 1,343 ground support personnel. On April 13, 
2018, the Secretary of Defense approved the request through September 
30, 2018.
    On May 9, 2018, DHS requested 736 National Guard personnel to 
assist CBP Office of Field Operations, Air and Maritime Operations, and 
Office of Intelligence. On May 11, 2018, the Secretary of Defense 
approved the request through September 30, 2018.
    On August 21, 2018, DHS requested an extension of the National 
Guard support to September 30, 2019, and up to 15,950 flight hours of 
air support and 2,182 ground support personnel (7,800 hours of light 
rotary-wing air support in 7 U.S. Border Patrol (USBP) sectors; 1,700 
hours of medium rotary-wing air support in 3 USBP sectors; 3,450 hours 
of fixed-wing air support in 4 USBP sectors; and 3,000 hours of UAS 
support in 4 USBP sectors), as well as 327 indirect support personnel 
for command and control. On August 30, 2018, the Secretary of Defense 
approved the request.
    The current estimated cost of this support totals $411 million, 
including $103 million in fiscal year (FY) 2018 and $308 million in FY 
2019. Consistent with the President's direction, including in his April 
4, 2018, Presidential memorandum, ``Securing the Southern Border of the 
United States,'' DOD support is provided on a non-reimbursable basis to 
the greatest extent legally permissible.
Attorney Support for the Department of Justice
    On May 16, 2018, the Department of Justice (DOJ) requested that DOD 
detail 21 attorneys with criminal trial experience to DOJ to serve as 
Special Assistant United States Attorneys (SAUSAs) for a period not to 
exceed 179 days. On May 27, 2018, the Secretary of Defense approved the 
request.
    DOD provided a combination of Active Component (5), Reserve 
Component (14) (including 2 Air National Guard), and civilian (2) 
attorneys. All Reserve officers served in a voluntary duty status 
pursuant to section 12301(d) of title 10, U.S. Code. These attorneys 
were sourced from the Air Force (5), Army (9), Marines (2), Navy (3), 
and Defense Legal Services Agency (2).
    DOD attorneys were assigned to U.S. Attorney Offices in: Corpus 
Christi, Texas (1); Del Rio, Texas (3); El Centro, California (1); El 
Paso, Texas (2); Laredo, Texas (2); Las Cruces, New Mexico (5); 
McAllen, Texas (2); San Diego, California (4); and Yuma, Arizona (1).
    These DOD attorneys were appointed as SAUSAs and worked full time 
under the direction and supervision of Assistant U.S. Attorneys, 
assisting in prosecuting reactive border immigration cases, with a 
focus on misdemeanor improper entry and felony illegal reentry cases. 
Their duties included: drafting pleadings; assisting with plea 
negotiations; and making court appearances, all under the supervision 
of Assistant U.S. Attorneys.
    This detail of DOD personnel, which cost $1.5 million, was executed 
pursuant to the Economy Act and was executed on a fully reimbursable 
basis.

DOD assistance to CBP Operation Secure Line
    On August 8, 2018, DHS requested two military planners to assist 
the CBP Migrant Crisis Action Team (MCAT) through November 20, 2018. On 
August 17, 2018, the Secretary of Defense approved the request. On 
November 17, 2018, DHS requested a 90-day extension for the two 
military planners. On November 19, 2018, the Secretary of Defense 
approved the request.
    On October 25, 2018, DHS requested additional support to address 
the risk posed by an approaching Central American migrant caravan. 
Specifically, DHS requested:
    <bullet>  Military planning team to coordinate operation, 
engineering, medical, and logistic support.
    <bullet>  Engineering capability to provide temporary vehicle 
barriers and pedestrian style fencing at and around a port of entry 
(POE), including but not limited to: 2 one-half-mile segments of 
continuous anti-personnel intrusion fencing (for a total of 1 mile), 
approximately 4 one-way retractable vehicle anti-intrusion barricades, 
up to approximately 100,000 square feet of configurable pedestrian 
fencing, and approximately 5,000 total (non-continuous) feet of fixed 
vehicle barricades.
    <bullet>  Deployable medical units to triage and treat up to 1,000 
personnel every 24 hours and to be prepared to stabilize and prepare 
injured personnel for commercial transport to civilian medical 
facilities as necessary.
    <bullet>  Medium-lift rotary-wing aviation support, on-call 24-
hours a day, to supplement the movement of CBP quick reaction force 
tactical personnel in and around locations determined by CBP day or 
night.
    <bullet>  Strategic lift aviation, available with 12-hour 
notification, to move up to 400 CBP personnel and equipment to a 
location determined by CBP.
    <bullet>  Command center facility for up to 100 personnel.
    <bullet>  Temporary housing for up to 2,345 CBP personnel.
    <bullet>  Meals-ready-to-eat for 2,345 CBP personnel for 2 meals 
per day for approximately 10 days and field kitchen capable of feeding 
2,345 CBP personnel for 1 meal per day for 10 days.
    <bullet>  Riot gear equipment (helmet with face shield, hand-held 
shields, shin guards) for 500 CBP personnel.
    <bullet>  Military personnel to provide Federal, State, and local 
police with assistance necessary to protect CBP personnel as they 
perform their Federal functions.
    On October 26, 2018, the Secretary of Defense approved the 
request--with the exception of the request for military personnel to 
protect CBP personnel, which required a Presidential determination--and 
authorized active-duty military personnel to provide support through 
December 15, 2018. DOD selected the military personnel best-suited and 
available from the total force to provide the assistance to CBP 
requested by DHS, pursuant to the President's direction and as approved 
by DOD. Active-duty military personnel were more readily available 
than, and their use did not incur the additional pay and allowance 
costs associated with using, National Guard personnel. Although 
military personnel are highly trained and, for the most part, required 
no additional training, U.S. Northern Command conducted mandatory two-
day training with all military personnel deployed to the southern 
border before those personnel began providing support to CBP. This 
deployment of military personnel did not, and is not expected to, 
compromise the ability of the U.S. Armed Forces to respond to other 
national security threats around the world.
    On November 14, 2018, DHS requested that DOD emplace an additional 
26 miles of concertina wire at designated locations outside the POE 
buffer zones. DHS remained responsible to address environmental 
compliance for all areas of installation and the necessary access to 
land. On November 16, 2018, the Secretary of Defense approved the 
request and authorized the support through December 15, 2018.
    On November 15, 2018, DHS requested DOD assistance with medical 
evaluations, and, if needed, urgent medical care of migrants referred 
by CBP to DOD deployed medical units at up to three POEs, or port 
extensions, along the U.S. Southwest border. DOD medical personnel also 
were to evaluate, treat, or refer migrants identified by CBP with 
potential or suspected conditions or infectious diseases that pose a 
public health risk. Once evaluated and treated for urgent medical 
conditions, or suspected conditions or infectious diseases, migrants 
either were to be returned to CBP for processing or to be transferred 
by CBP to local civilian health facilities for further medical care. 
DOD medical personnel were not to be present at locations where CBP 
conducts migrant medical screening. CBP law enforcement officials were 
to maintain custody for each migrant referred to DOD medical personnel 
at all times. CBP remained responsible for escorting migrants to and 
from the DOD medical units, and during transportation to and from local 
civilian health facilities. CBP also remained responsible for providing 
interpreters for migrants who were to be evaluated or treated by DOD 
medical personnel. On November 16, 2018, the Secretary of Defense 
approved the request and authorized DOD medical assistance through 
December 15, 2018.
    On November 18, 2018, DHS requested that DOD protect CBP personnel 
performing their Federal functions within property controlled by CBP at 
or adjacent to one or more designated POEs, as necessary. This DOD 
military protection would be employed if CBP, other Federal law 
enforcement personnel, National Guard personnel operating under State 
command and control, and State and local law enforcement personnel were 
unable to apprehend or otherwise control migrants or other individuals 
attempting to enter the United States who threaten to harm CBP 
personnel or disrupt the ability of such personnel to perform their 
Federal functions within property controlled by CBP at or adjacent to a 
POE. On November 18, 2018, the Secretary of Defense approved the 
request contingent upon authorization by the President, which was 
provided on November 20, 2018. DOD military personnel protecting CBP 
personnel were authorized to perform missions that required direct 
contact with migrants and, at DOD's discretion, might require them to 
be armed. Decisions regarding arming of DOD personnel and related rules 
for the use of force were informed by the circumstances of this 
protection mission and made by DOD, or, in the case of National Guard 
personnel performing this mission under State control, by the 
applicable State Governors, and in consultation with CBP. DOD military 
personnel performing this mission were not to perform civilian law 
enforcement-type activities, such as arrest, search, and seizure; 
however, DOD military personnel were authorized to take actions to 
mitigate hostile actions by migrants against CBP personnel performing 
their Federal functions within property controlled by CBP at or 
adjacent to a designated POE, including but not limited to a show of 
force, crowd control, temporary detention, and cursory search necessary 
for the protection of CBP personnel. In these circumstances, 
``temporary detention'' meant holding individuals for a brief period of 
time to resolve an imminent threat to the safety and security of CBP or 
DOD personnel within property controlled by CBP at or adjacent to the 
designated POE and to effectuate the orderly transfer of such 
individuals to CBP or other law enforcement personnel as soon as 
possible (CBP's expectation was that such detention would last seconds 
to minutes, depending on the situation).
    On November 30, 2018, DHS requested an extension of the active-duty 
military support in CBP Region IX (California and Arizona), with the 
proviso that, as operationally required, the extended capabilities 
could be shifted or expanded back into CBP Region VI (New Mexico and 
Texas) following consultation between DHS and DOD. DHS requested that 
DOD:
    <bullet>  Maintain medium-lift rotary-wing aircraft capability with 
accompanying pilots and aviation support personnel to supplement the 
movement of CBP tactical personnel in and around locations determined 
by CBP. These aircraft were to perform standard aviation mission 
profiles, including but not be limited to Quick Reaction Force support, 
helicopter rope suspension technique/fast rope insertion of QRF 
personnel, command and control (C2), transport of CBP personnel and 
mission essential supplies, and casualty evacuation.
    <bullet>  Maintain aviation terminal control and asset de-
confliction at CBP designated locations.
    <bullet>  Maintain the fixed-wing capability with accompanying 
pilots and aviation support personnel to move approximately 50 CBP 
personnel and equipment to a location determined by CBP within 12 hours 
following a 48-hour notification.
    <bullet>  Maintain capability at CBP-designated locations to 
evaluate and treat up to 200 migrants, CBP personnel, and other 
authorized personnel per day, and to provide emergency casualty care 
and public health support.
    <bullet>  Maintain Military Police support at CBP-designated 
locations to protect CBP personnel performing their Federal functions.
    <bullet>  Maintain engineering capabilities at CBP-designated 
locations to emplace POE barriers, emplace additional hardening 
measures as required, and maintain POE-hardening structures (including 
but not limited to fencing, concertina wire, and barriers). In CBP 
Region IX, maintain engineering capabilities at CBP-designated 
locations to complete currently agreed-to engineering priorities (if 
not completed by December 15, 2018). Maintain capability to surge 
engineering barrier maintenance and repair support to needs that emerge 
along the border outside of CBP Region IX.
    <bullet>  Maintain temporary housing and/or structures to house up 
to 500 CBP personnel with associated latrine and shower facilities. CBP 
was to establish/maintain interagency agreements with appropriate DOD 
organization.
    <bullet>  Maintain temporary hand receipt of riot gear.
    On December 4, 2018, the Secretary of Defense approved the request, 
extending the support through January 31, 2019, or such time that CBP, 
in consultation with DHS and DOD, determined that the risk posed by the 
caravan to CBP personnel performing their Federal functions at POEs 
affected by the arrival of the caravan was mitigated or reduced to an 
acceptable level, whichever was earlier.
    On December 27, 2018, DHS requested new DOD support. Specifically, 
in addition to aviation support, which was previously approved by the 
Secretary of Defense through September 31, 2019, DHS requested: (1) 
mobile surveillance camera operators to support CBP agents through 
September 30, 2019; and (2) 150 miles of concertina wire emplacement 
between the POEs by March 31, 2019. On January 11, 2019, the Secretary 
of Defense approved the request.
    The estimated cost of DOD support to CBP Operation Secure Line 
through January 31, 2019, is $132 million. Consistent with the 
President's direction, including in his April 4, 2018, Presidential 
memorandum, ``Securing the Southern Border of the United States,'' DOD 
support is provided on a non-reimbursable basis to the greatest extent 
legally permissible.
    Mr. Smith. Please provide an accounting of all expenses incurred by 
the Department of Defense--specified by appropriation, budget activity, 
and sub-activity group--for all operations and support for DOD and 
other Federal activities along the southern border. This should include 
appropriated, working capital, and non-appropriated funds. This list 
include the granting DOD entity, the receiving Agency or Agencies, as 
well as type of activity, time period, cost, and whether DOD has or 
will be reimbursed.
    Secretary Rood. DOD support to CBP Operation Guardian Support 
commenced on April 7, 2018. As of February 21, 2019, DOD has incurred 
$216 million in reported obligations for expenses such as National 
Guard pay and allowances, applicable per diem costs, Operation and 
Maintenance support costs, and Operation and Maintenance flying hour 
costs ($103M FY 2018; $113M FY 2019).
    Costs are primarily being reported in the following Budget Sub-
Activity Groups (SAGs):

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    DOD support to CBP Operation Secure Line commenced on October 
16, 2018, and, as of February 20, 2019, DOD has incurred $49 million in 
reported obligations such as personnel subsistence/per diem/lodging/
family separation allowance, travel, supplies, and transportation. 
Costs are primarily being reported in the following Budget Sub-Activity 
Groups (SAGs):

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    DOD provides support to CBP under available legal authorities, 
consistent with the April 4, 2018, Presidential memorandum, ``Securing 
the Southern Border of the United States.'' All DOD costs incurred are 
on a non-reimbursable basis, to the greatest extent legally 
permissible.
    Presently, the DOD Components providing the personnel and 
capabilities are responsible for the resulting bills. The DOD 
Components are leveraging base budget appropriations to pay for the 
border support mission. To date, the DOD Components have reported costs 
mainly in Operation and Maintenance and Military Personnel accounts. 
The DOD Comptroller is reviewing DOD accounts to fund this support with 
minimal disruption to readiness and other DOD missions. The DOD 
Comptroller will analyze the reported costs to develop sourcing 
strategies for potential reprogramming actions, as required, in the 
context of all DOD requirements.
    Mr. Smith. During your testimony you stated that ``most people just 
think we are consuming readiness, but we're also producing readiness 
during those of deployments.'' Please provide specific examples. How is 
there an overall net gain in readiness for units that support the 
border mission as it relates to missed home station training, reset, or 
pre-deployment training? Your testimony referred to the training 
specific to Military Police (MPs) and the potential for command and 
control leadership principles that may get exercised. Please exclude 
these from your examples.
    Admiral Gilday. In aggregate, the Joint Force's support to the 
Southwest Border (SWB) mission has not significantly impacted the 
strategic readiness of the Joint Force, largely because the current 
Global Force Management (GFM) process enables the Force Providers to 
source the SWB mission and internally rotate forces in such a way as to 
mitigate the overall impacts to strategic readiness.
    Although the strategic readiness impact to the Joint Force is 
mitigated, individual unit impacts can be more pronounced. Analysis of 
unit reporting in the Defense Readiness Reporting System (DRRS) 
indicates that there have been both increases and decreases to unit-
level readiness reporting for those units supporting the SWB mission 
since October, 2018. It is important to note that short-term unit 
readiness increases are tempered by decreases caused by both split/
partial deployments and missed unit-level training activities.
    The instances of unit readiness increases involve units and 
individuals who are employed in such a way that the assigned mission in 
support of the SWB aligns with the unit's designed or ``Core'' wartime 
mission. Examples of small-unit and individual readiness increases 
represent instances when the unit, and/or individuals, are able to 
exercise aspects of their Core Mission Essential Tasks (METs) while 
conducting the SWB mission. Additional examples of units/individuals 
who are able to exercise components of their Core-METs include 
engineering units that are emplacing obstacles and constructing 
barriers, as well as Quartermaster, Field Feeding Companies (FFCs), who 
are able to execute tasks that directly link to the unit's Core-METs.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. Please provide specific details on which units have 
been deployed, including those expected to be deployed in the coming 
weeks, the locations of their deployments, and how this mission is 
impacting troops' readiness.
    Secretary Rood. As of March 13, 2019, there were approximately 
3,999 active-duty military personnel supporting CBP Operation Secure 
Line. The attached document identifies active-duty military units 
supporting CBP Operation Secure Line. [The information referred to is 
classified and retained in the committee files.]
    As of March 11, 2019, there were approximately 2,227 National Guard 
personnel supporting CBP Operation Guardian Support at the southern 
border of the United States. National Guard personnel from Alabama, 
Arizona, Arkansas, California, Georgia, Illinois, Indiana, Iowa, 
Kansas, Kentucky, Michigan, Mississippi, Nebraska, New Hampshire, New 
Mexico, Ohio, Pennsylvania, South Carolina, South Dakota, Tennessee, 
Texas, Utah, and West Virginia are currently supporting CBP Operation 
Guardian Support. The attached document identifies National Guard units 
supporting CBP Operation Guardian Support. [The information referred to 
is classified and retained in the committee files.]
    DOD, including the Military Services, proactively manages any 
effects on readiness regardless of mission set by means of diligent and 
conscientious unit selection, through appropriate mission-assignment 
processes, and by leveraging training and readiness opportunities when 
available.
    Mr. Garamendi. Please provide specific details on which units have 
been deployed, including those expected to be deployed in the coming 
weeks, the locations of their deployments, and how this mission is 
impacting troops' readiness.
    Admiral Gilday. For the complete listing of units, locations, 
please see classified enclosure (ENCL-A) ENCL-A is the placemat. [The 
enclosure referred to is classified and retained in the committee 
files.]
    To date, the Joint Force's support to the Southwest Border (SWB) 
mission has not significantly impacted the strategic readiness of the 
Joint Force, largely because the current Global Force Management (GFM) 
process enables the Force Providers to source the SWB mission and 
internally rotate forces in such a way as to mitigate the overall 
impacts to strategic readiness.
    This assessment is based largely from the overall impacts to the 
Force Providers. The Army units providing support to the SWB mission 
are sourced primarily from units outside of Brigade Combat Teams 
(BCTs), which enables the Army to preserve BCT readiness in support of 
National Defense Strategy (NDS) priorities. For the Marine Corps, the 
initial sourcing of Request for Assistance 3 (RFA-3) included a 
Regimental Headquarters in addition to an Engineer Battalion 
Headquarters and a Military Police (MP) Company. As of mid-February, 
the Marine Regimental Headquarters is being replaced by an Army Brigade 
Headquarters, which will help mitigate some of the impacts to training 
and readiness I Marine Expeditionary Force (I MEF).
    Depending on the SWB's continued mission, scope, and duration, an 
overall readiness decline is possible in training proficiency, 
equipment readiness and personnel availability, as well as a 
degradation of available forces to support global commitments. The 
Joint Staff, in conjunction with OSD and the Force Providers will 
continue to closely assess these potential impacts.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BROWN
    Mr. Brown. Mr. Rood, the administration is considering the 
declaration of a national emergency on the southern border. Yet, the 
deployment strategy indicates the administration believes the situation 
is improving. Active duty troop deployment peaked at 5,900 in November 
2018 and has since fallen to 2,300 troops currently at the southern 
border. How does this justify the potential declaration of a national 
emergency?
    Secretary Rood. On February 15, 2019, the President declared a 
national emergency because ``[t]he current situation at the southern 
border presents a border security and humanitarian crisis that 
threatens core national security interests and constitutes a national 
emergency.'' In his proclamation, the President also determined that 
``[b]ecause of the gravity of the current emergency situation, it is 
necessary for the Armed Forces to provide additional support to address 
the crisis.''
    Mr. Brown. Mr. Rood, when the deployment was extended to September 
2019, DOD stated that troops would be providing ``mobile surveillance 
camera operations''. I have deep concerns regarding our military 
conducting surveillance operations on U.S. soil. What authorities are 
you using to authorize this surveillance and how are you ensuring that 
the rights of U.S. citizens are protected?
    Secretary Rood. Congress has provided DOD with several authorities 
to detect and monitor cross-border traffic. For example, section 274 of 
title 10, U.S. Code, authorizes DOD, in support of civilian law 
enforcement agencies, to detect, monitor, and communicate the movement 
of surface traffic outside of the geographic boundary of the United 
States and within the United States not to exceed 25 miles of the 
boundary if the initial detection occurred outside of the boundary.
    DOD's exercise of such authorities are consistent with the law, 
including laws protecting the rights of U.S. citizens.
    Mr. Brown. Vice Admiral Gilday, there has been reporting that 
several overseas deployments--including at least one to Europe--have 
been impacted by using our military in our own backyards in California, 
Texas, Arizona, and New Mexico instead of where they are trained to 
operate--abroad and in foreign lands. How many overseas deployments 
have been impacted by this decision and how has the diversion affected 
our commitments to our allies?
    Admiral Gilday. No overseas deployment impact reported (confirmed 
with each of the Force Providers); all impacts reported have been 
CONUS-based training events and exercises. Accordingly, the Joint Staff 
assesses that the current Joint Force support to the SWB mission has 
not affected commitments with allies or partners.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. HOULAHAN
    Ms. Houlahan. Please provide an updated list deployed personnel and 
a map of their location. For any units larger than 10, please describe 
what their mission is and what they would be doing if they weren't on 
the border right now.
    Secretary Rood. As of March 13, 2019, there were approximately 
3,999 active-duty military personnel supporting CBP Operation Secure 
Line. The attached document identifies active-duty military units 
supporting CBP Operation Secure Line. [The information referred to is 
classified and retained in the committee files.]
    As of March 11, 2019, there were approximately 2,227 National Guard 
personnel supporting CBP Operation Guardian Support at the southern 
border of the United States. National Guard personnel from Alabama, 
Arizona, Arkansas, California, Georgia, Illinois, Indiana, Iowa, 
Kansas, Kentucky, Michigan, Mississippi, Nebraska, New Hampshire, New 
Mexico, Ohio, Pennsylvania, South Carolina, South Dakota, Tennessee, 
Texas, Utah, and West Virginia are currently supporting CBP Operation 
Guardian Support. The attached document identifies National Guard units 
supporting CBP Operation Guardian Support. [The information referred to 
is classified and retained in the committee files.]
    Military personnel are performing aviation; engineering (e.g., 
temporary barriers, and emplace concertina wire); communications; fleet 
maintenance; law enforcement information analysis; planning; and 
detection and monitoring. Additionally, a small number of personnel 
remain available for emergency response at POEs in California through 
September 30, 2019. This includes 1 military police platoon and a small 
number of medics on 48-hour notice and 1 military police company on 7-
day Prepared-to-Deploy Order with medics.
    Ms. Houlahan. Please provide a list of all the units that have been 
and are currently deployed and also their Defense Readiness Reporting 
System (DRRS) reports from before and after deployment so that we could 
understand from a quantitative perspective how their readiness has been 
affected if it has been positively or negatively.
    Secretary Rood. [Please see the classified enclosure (ENCL-B) for 
the list of all units and a snapshot of their DRRS reports from October 
2018 through the present. ENCL-B is the J35 SWB Product.] [The 
enclosure referred to is classified and retained in the committee 
files.]
    Ms. Houlahan. In some cases, individuals are being deployed from 
their units separate from their units and we know the units have a 
finite period at home to train for their next deployment. Are we 
hurting their home unit training or readiness, are we impeding or 
impairing individuals' career abilities by deploying in this way? How 
is the Department capturing the impact of this from a quantitative 
perspective?
    Secretary Rood. In aggregate, the Joint Force's support to the CBP 
security mission at the southern border has not affected the strategic 
readiness of the Joint Force significantly, largely because the current 
Global Force Management (GFM) process enables the Force Providers to 
source Joint Force support to CBP at the southern border and internally 
rotate forces in such a way as to mitigate the overall effects on 
strategic readiness.
    In those cases where readiness may have been affected for units 
supporting the CBP, many of the reported negative effects are due to 
partial or split deployments (not the full unit). The issue is that 
partially deployed, or split-based, units are unable to train 
effectively to collective standards against their designed mission, 
which degrades their overall unit readiness. Historical review of 
reporting for units that experience readiness degradations due to 
partial deployments for a limited period of time indicates that these 
units can return to pre-deployed readiness levels fairly quickly. 
Accordingly, the GFM process enables the Force Providers both to source 
and rotate units in such a way as to mitigate the overall effects on 
readiness. The GFM process includes detailed impact statements that 
clearly articulate risks to both mission and force. These impact 
statements include effects on readiness, thereby quantitatively 
capturing the impact of DOD's support of CBP at the southern border.
    Ms. Houlahan. Title 10, section 276 states that the Secretary of 
Defense should prescribe regulations to ensure that the provision that 
any support to law enforcement does not adversely affect the military 
preparedness of the United States. Are you aware of any directives or 
policy statements put forth by the department to ensure that any 
readiness impacts of this border deployment has been mitigated? If so, 
please provide copies of those policies or directives. If not, why not? 
How does the Department plan to comply with Section 276?
    Secretary Rood. DOD policy in DOD Directive 3025.18, ``Defense 
Support of Civil Authorities (DSCA),'' requires that all requests from 
civil authorities for assistance be evaluated for effects on readiness. 
DOD, including the Military Services, proactively manages any effects 
on readiness regardless of mission set by means of diligent and 
conscientious unit selection, through appropriate mission-assignment 
processes, and by leveraging training and readiness opportunities when 
available. As such, DOD does not anticipate that DOD support to DHS at 
the southern border will adversely affect the military preparedness of 
the United States.
    DOD Instruction 3025.21, ``Defense Support of Civilian Law 
Enforcement Agencies,'' establishes that it is DOD policy that ``DOD 
shall be prepared to support civilian law enforcement agencies 
consistent with the needs of military preparedness of the United 
States, while recognizing and conforming to the legal limitations on 
direct DOD involvement in civilian law enforcement activities.'' DOD 
Instruction 3025.21 also provides guidance and assigns responsibilities 
with regards to ``evaluating requests for assistance in terms of effect 
on military preparedness of the United States.''
    The President's January 27, 2017, memorandum, ``Rebuilding the U.S. 
Armed Forces,'' established that it is ``the policy of the United 
States to rebuild the U.S. Armed Forces.'' Consistent with this policy, 
military readiness remains a key DOD priority.
    Ms. Houlahan. Will the Department seek reimbursement for the 
deployment of forces to the Southern Border as outlined by 10 USC 277? 
If so, will the funds from the reimbursement used to remediate any 
readiness challenges with the deployed units?
    Secretary Rood. Consistent with the President's direction, 
including his April 4, 2018, Presidential memorandum, ``Securing the 
Southern Border of the United States,'' DOD support is provided on a 
non-reimbursable basis to the greatest extent legally permissible. 
Section 277(c) of title 10, U.S. Code, for instance, authorizes the 
Secretary of Defense to waive reimbursement for support if such 
support: (1) is provided in the normal course of military training or 
operations; or (2) results in a benefit to the element of DOD or 
personnel of the National Guard providing the support that is 
substantially equivalent to that which would otherwise be obtained from 
military operations or training. In addition, section 1059 of the 
National Defense Authorization Act for Fiscal Year 2016 (Public Law 
114-92) authorizes the Secretary of Defense to provide assistance to 
U.S. Customs and Border Protection, without reimbursement, for purposes 
of increasing ongoing efforts to secure the southern land border of the 
United States.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BACON
    Mr. Bacon. Vice Admiral Gilday, in testimony last year Admiral 
Tidd, Commander of USSOUTHCOM, stated ``threat networks including . . . 
terrorist supporters and sympathizers . . . use common pathways and 
conduct operations that span the [southern] region and reach deep into 
our homeland.'' In your testimony you affirmed this statement adding 
that you consider the terror threat in the Southern Region to be ``very 
real''. Please provide an updated assessment of the terror threat in 
the Southern Region including number of individuals with known or 
suspected connections to terrorism detained each year over the previous 
5 years by the U.S. or partner governments in Central or South America 
that pose a threat to the United States.
    Admiral Gilday. [The information is classified and retained in the 
committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. ESCOBAR
    Ms. Escobar. Mr. Rood, does the military believe Central American 
families, who have a right to seek asylum under international and 
immigration laws, constitute a national emergency? Subsequently, does 
the military believe that asylum seekers are a threat to national 
security?
    Secretary Rood. DOD defers to the White House and the Department of 
Justice to comment on the President's lawful authority to declare a 
national emergency. DOD support to DHS is being executed pursuant to 
the President's direction, including in his April 4, 2018, Presidential 
memorandum, ``Securing the Southern Border of the United States.'' The 
Secretary of Homeland Security has repeatedly emphasized the nature of 
the crisis at the southern border.
    Ms. Escobar. Mr. Rood, the President, in reference to using the 
military to build a wall, recently said ``the military wants this to 
happen''. Can you please respond to the President's comment?
    Secretary Rood. DOD defers to the White House to elaborate on the 
President's statement.
    DOD uses barriers to protect and control access to military 
installations in the United States and overseas, including areas of 
active conflict.
    According to the Secretary of Homeland Security, border barriers 
enable the U.S. Border Patrol to cover more border area with fewer 
agents and to manage more effectively the flow of people entering and 
exiting the United States.
    Ms. Escobar. The President is reportedly considering pulling $3.6 
billion in military construction funds and $3 billion in Pentagon civil 
works funds to build a wall. This sets a terrible precedent for 
critical dollars for the military to be diverted toward a campaign 
promise. Mr. Rood, if the President declares a national emergency, how 
will the military ensure the American people are safe from actual 
threats to our country?
    Secretary Rood. On February 15, 2019, the President declared a 
national emergency and invoked section 2808 of title 10, U.S. Code. If 
the Acting Secretary of Defense determines that barrier construction is 
necessary to support the use of the armed forces, his selection of 
military construction (MILCON) projects to be used as funding sources 
for the emergency MILCON projects would minimize effects on readiness.
    Ms. Escobar. Mr. Rood, the Trump administration has repeatedly 
claimed that terrorists are coming in through the southern border. What 
data can you share about how many national security threats cross at 
the southern border? The northern border?
    Secretary Rood. DOD defers to DHS to describe potential terrorist 
entry into the United States through the southern border. In accordance 
with section 402 of the Homeland Security Act of 2002 (Public Law 107-
296; section 202 of title 6, U.S. Code), DHS is responsible for 
preventing the entry of terrorists and the instruments of terrorism 
into the United States and for securing the borders, territorial 
waters, ports, terminals, waterways, and air, land, and sea 
transportation systems of the United States. The Secretary of Homeland 
Security has repeatedly emphasized the nature of the crisis at the 
southern border.

                                  [all]
</pre></body></html>
